<html>
<title> - SUDAN: A CRITICAL MOMENT FOR THE C.P.A., DARFUR, AND THE REGION</title>
<body><pre>[Senate Hearing 111-749]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-749

    SUDAN: A CRITICAL MOMENT FOR THE C.P.A., DARFUR, AND THE REGION

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
62-690 pdf                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        







                            C O N T E N T S

                              ----------                              
                                                                   Page

Gration, Maj. Gen. Scott, USAF (Ret.), Special Envoy to Sudan, 
  Department of State, Washington, DC............................     4
    Prepared statement...........................................     6
    Responses to questions submitted for the record by Senators:
        Richard G. Lugar.........................................    33
        Barbara Boxer............................................    38
        Roger F. Wicker..........................................    40
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

              Additional Material Submitted for the Record

United States Agency for International Development, Washington, 
  DC, prepared statement.........................................    29

                                 (iii)

  

 
    SUDAN: A CRITICAL MOMENT FOR THE C.P.A., DARFUR, AND THE REGION

                              ----------                              


                        WEDNESDAY, MAY 12, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Casey, Lugar, Isakson, 
Risch, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    My apologies to all for the delay. But, obviously we had 
three votes, and I thought it was more important for us to able 
to be here in a continuum. And I appreciate everybody's 
understanding and indulgence.
    And, General, thank you very much for being willing to be 
patient. We appreciate it.
    We do have another pressure on us, which is, we have a 
back-end use of this room, which is also competing with us. So, 
we're going to have to try to see if we can do this within the 
framework of about an hour, an hour and 15 minutes, which I 
think will be possible and adequate.
    I know, General, you will not be sad that your time before 
us will be somewhat limited.
    We're very pleased to welcome you back here, General. I 
appreciate your service as the President's special envoy for 
Sudan. And I know you're just back from your travels in East 
Africa.
    And this is, I think, by most people's perception, a 
critical moment for Sudan. A lot of emergencies come with 
little warning, and we have to react to them. But, in Sudan 
today, we not only have a map of the faultlines that exist, but 
we have a timetable for the potential tectonic shifts that are 
going to take place in the days to come. So, we have a lot of 
warning about what may or may not take place in this part of 
the world.
    In January 2011, a short time from now, the people of 
Southern Sudan are scheduled to vote in a referendum on 
independence. Every credible poll predicts that the outcome 
will be a vote for separation. Multiple experts also tell us 
that if the referendum does not take place on time, then the 
renewal of a war that claimed 2 million lives becomes a tragic 
possibility, perhaps even likelihood.
    Far less certain is how you find a peaceful path forward. 
Southern Sudan is not preordained as a failed state, but its 
fragility is very, very clear. And neither the modalities for 
peaceful separation nor the mechanisms for successful 
governance currently exist.
    So, we all understand the stakes. According to Director of 
National Intelligence Dennis Blair, while a number of countries 
in Asia and Africa are at significant risk of a new outbreak of 
mass killings over the next 5 years, Southern Sudan is the 
place where, ``a new mass killing or genocide is most likely to 
occur.''
    The implications of Sudan's instability do not end at its 
borders. Countries dependent on the Nile's waters, or anxious 
about their own separatist movements, have concerns. Southern 
Sudan's neighbors worry about an exodus of refugees. And the 
Lord's Resistance Army continues to wreak havoc across Southern 
Sudan, the Democratic Republic of Congo, and the Central 
African Republic.
    The 2005 Comprehensive Peace Agreement, or CPA, as we often 
refer to it, was intended to create a very different future. 
The larger peace crafted by that agreement has held. But, hopes 
for democratic transformation, an ambitious goal for just 5 
years, have gone unfulfilled.
    Last month, Sudan held its first national elections in a 
quarter century, as were called for under the CPA. The Sudan 
People's Liberation Movement and other opposition parties 
ultimately boycotted the elections in the North, citing 
intimidation, voter fraud, and other acts. The White House and 
most independent observers described the process as ``seriously 
flawed.''
    Today, we would like to understand the significance of the 
balloting, but we also need to look at the larger picture of 
the challenges that Sudan faces. That includes, still, Darfur, 
where the current deadlock leaves many people in camps, trapped 
in what our top diplomat in Sudan described to me as ``a 
miserable stasis.''
    Others in areas such as Jebel Marra are exposed to renewed 
fighting with Khartoum's old tactics, causing new waves of 
anguish, civilian casualties, and displacement.
    While the CPA provides a timetable for North and South, 
there is no clear timetable or agenda for a peace agreement in 
Darfur. For those in the camps, 7 years after the onset of the 
genocide, the questions remain the same: land, security, 
justice, and compensation. We need to find a way for their 
voices to be heard, and we need to empower Darfur's civil 
society, not simply its armed men.
    We must also ensure continued humanitarian assistance to 
millions of people in need in Darfur, including vital 
protection programs that were lost when Khartoum expelled 13 
aid groups in March 2009. And we should explore whether 
simultaneous early recovery activities can be pursued in tandem 
with humanitarian aid in order to make lives better for the 
long-suffering people of Darfur.
    With a timetable for one potential calamity laid out before 
us, and an ongoing crisis still playing out in Darfur, this is 
the moment for contingency planning, ensuring that we have the 
resources in place to respond to events and working proactively 
with the Sudanese, North and South, the U.N., Sudan's 
neighbors, and other partners, from preventing the worst from 
coming to pass.
    Given Dennis Blair's warning, the stakes are clear. And our 
window to help the Sudanese people find a peaceful solution is 
rapidly closing. It's time for Congress to reengage on Sudan. 
As the CPA nears its final act, I am developing legislation to 
help shape our Sudan policy and ensure that our policy 
maximizes the chances of peace. The bill we're working on will 
seek to reframe United States assistance, prepare for the 
potential changes that may come, accelerate contingency 
planning, send important signals to Khartoum, Juba, and other 
partners, and build United States diplomatic and development 
capacity to address what may become a very difficult season in 
the life of Africa's largest country.
    I look forward to working with the administration and my 
colleagues here today to lay the groundwork for meeting the 
complex challenge that we face.
    Our sole witness this morning is Gen. Scott Gration, the 
President's special envoy to Sudan. And, given the regional 
stakes, we would have welcomed another witness from the State 
Department to share a broader perspective, but we do appreciate 
USAID's willingness to contribute to the discussion and provide 
a written statement.
    And we welcome you, General Gration. Thank you.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in welcoming 
General Gration back to the Foreign Relations Committee.
    The United States has long been invested in helping to 
stabilize war-torn Sudan. We have been engaged in this problem 
because it has national security implications and because we 
have a moral interest in working to prevent humanitarian 
disasters and genocide.
    Sudan has been fractured by economic and power-sharing 
disputes between ethnic groups, as well as relentless violence 
upon civilians. Conditions there brought a U.S. declaration of 
ongoing genocide and an International Criminal Court indictment 
of President al Bashir.
    The death toll of the North-South conflict and the graphic 
scorched-earth strategy in Darfur also elicited remarkable 
grassroots activism in the United States. Along with like-
minded nations, we've achieved some success in preventing 
military escalation and protecting millions of people at risk 
in Darfur and the South.
    But a peace agreement in Darfur is distant and clouded by 
uncertainty surrounding the outcome of the Comprehensive Peace 
Agreement process. Failure of the peace agreement between North 
and South could have catastrophic consequences for all of 
Sudan.
    In testimony earlier this year, ADM Dennis Blair, the 
Director of National Intelligence, said, ``A number of 
countries in Africa and Asia are at significant risk for a new 
outbreak of mass killing. Among these countries, a new mass 
killing or genocide is most likely to occur in Southern 
Sudan.''
    Admiral Blair's stark assessment was prompted by evidence 
that the parties are moving toward conflict, rather than 
establishing the foundation for a sustainable peace. Each side 
is arming itself with far more lethal equipment than was 
deployed during the North-South civil war. This weaponry is 
being purchased with the income from oil that has flowed to 
both sides since the Comprehensive Peace Agreement was signed. 
These military expenditures have come at the expense of basic 
services and infrastructure for the people of Sudan. Rather 
than conclude agreements on wealth-sharing of the demarcation 
of borders, as called for in the peace agreement, Khartoum and 
Juba appear to be consolidating their ability to contest oil-
producing areas along the proposed border. Neighboring 
countries have begun to organize their military postures for 
potential instability on the borders with Sudan.
    Most observers agree that South Sudan is poorly equipped to 
govern its territory and lacks capacity to provide for its 
inhabitants. International capacity-building efforts, including 
training security forces and building a functioning capital 
city in Juba, are ongoing, but insufficient. Moreover, during 
the last 12 months, violence between ethnic groups in South 
Sudan has reportedly killed 3,000 people and displaced more 
than 400,000.
    As international attention to the North-South conflicts 
increases, Darfur risks being relegated to a lesser priority. 
This may suit the Khartoum regime and its proxies, as well as 
the myriad criminal elements operating in the Darfur region. 
Consequently, international vigilance toward Darfur should be 
heightened.
    Although the mortality rate across Darfur has dropped, some 
3 million people remain displaced and at risk. Through United 
States efforts, several expelled aid agencies have been able to 
return to Darfur, but the safety net for Darfur's displaced 
millions remains tenuous.
    The United Nations hybrid peacekeeping mission with the 
African Union continues to lack adequate helicopter support to 
respond to threats to civilians across vast distances.
    Given these complex circumstances, United States efforts 
related to Sudan must be fully resourced, and the 
administration must be speaking with one voice.
    Last July, during General Gration's testimony before our 
committee, he identified several staffing needs. I look forward 
to hearing from him today about whether these needs have been 
met and whether any additional resources are required for this 
problem. I also look forward to his assessments of the 
prospects for negotiations, as well as United States options in 
the event of escalating conflict.
    I thank you, Mr. Chairman, for holding this hearing.
    The Chairman. Well, thank you, Senator Lugar, for helping 
to set the stage for this hearing. We appreciate your comments.
    And, General Gration, if you would--we'll put your full 
text in the record as if read in full, if you could summarize, 
it will give Senators a little more time to have a dialogue 
here, in the time we do have. So, we look forward to your 
testimony.

  STATEMENT OF MAJ. GEN. SCOTT GRATION, USAF (RET.), SPECIAL 
      ENVOY TO SUDAN, DEPARTMENT OF STATE, WASHINGTON, DC

    General Gration. Chairman Kerry and Ranking Member Lugar 
and other members of the Senate Foreign Relations Committee, I 
really do appreciate this opportunity to come here this morning 
to discuss the situation and to answer your questions about the 
difficult challenges that lie ahead.
    The issues we face today, as you know, are very complex, 
and the time is very, very short. And the next months, as you 
pointed out so clearly, are so critical, as we strive to 
increase security and stability, peace and prosperity in Sudan.
    I'd like to just take a few minutes to just say a little 
bit about what's happened in the last 14 months. The recent 
rapprochement between Chad and Sudan has gone a long way to 
ending the proxy war that was such a devastating situation. Our 
team has played an integral role in unifying the rebel 
movements. And we hope that the peace talks will resume again, 
later this month, in Doha, to formalize the peace deal and get 
that cease-fire moving ahead.
    Looking ahead, as you rightly point out, Darfur will 
continue to be a priority. And we're working with the 
Government of Sudan, the Africa Union, the United Nations to 
end the remaining conflicts.
    Beyond the political talks, our objective remains to 
increase security and stability at the local level, at the 
individual level. And we're helping to negotiate agreements on 
power-sharing, wealth-sharing, land reform, compensation, local 
justice, and the accountability mechanisms.
    Recently, as you know, the Sudan held its first multiparty 
elections in 24 years, and we've consistently echoed the 
concerns expressed by the international observer missions about 
the logistical challenges, the violations of civil liberties, 
the harassment of opposition groups, and the ongoing problems 
that we're facing right now in the tabulation phase. But, these 
observer groups have also stated that the elections fulfilled a 
critical milestone of the CPA; they ushered in a renewed civic 
engagement across the country. Over 16,000 candidates from 72 
different political parties ran for executive offices and the 
1,841 legislative seats. And 25 percent of those will be filled 
by women. Nearly 80 percent of Sudan's eligible voters 
registered, and over 10 million Sudanese inked their fingers as 
they cast their votes.
    The elections represent an important first step in 
increasing the political space, and an initial movement toward 
the democratic transformation, both the North and the South.
    As we anticipate the end of the CPA in 2011, there are 
several more important issues that have to be resolved this 
year. And among them are preparing for the referenda in Abyei 
in Southern Sudan; conducting popular consultations in Southern 
Kordofan and the Blue Nile; and finalizing the demarcation of 
the borders in North and South and also in Abyei. And, of 
course, we're going to have to negotiate those critical post-
CPA agreements.
    As you mentioned, I just returned from a series of meetings 
in Addis, and while there, we met with representatives of the 
parties, senior leaders from the African Union, the United 
Nations, and other partners who are interested in Sudan. And 
together we're assembling a strong team of international 
regional stakeholders to implement the remaining CPA milestones 
to support these negotiations that have to take place about 
post-CPA issues, and to advance the vital programs in Darfur.
    We must never forget, though, that it's really this NCP and 
the SPLM who are really the only essential parties to the 
negotiations. And we must continue to help them to work 
together, and make that our top priority.
    I want to reiterate our unequivocal commitment to fully 
implementing the CPA. We must ensure that the southerners and 
residents of Abyei get an opportunity to vote in the referenda. 
And whether the South chooses unity or secession, it's 
imperative that the international community work now to ensure 
that the Government of Southern Sudan has the increased 
capacity to govern effectively, to provide security, and to 
deliver public services to its people. To achieve this, a 
robust and concerted international effort will be required.
    And on our part, the United States has already begun to 
expand its presence in the South. In the next month, we'll be 
sending a senior diplomat with experience in the region to lead 
our efforts on the ground. The United States Government and its 
growing team of international partners are increasingly well 
postured to respond to the many challenges and opportunities in 
Sudan.
    And with that, I look forward to your questions.
    [The prepared statement of General Gration follows:]

 Prepared Statement of Jonathan S. Gration, Major General, USAF (Ret), 
    U.S. Special Envoy to Sudan, Department of State, Washington, DC

    Chairman Kerry, members of the Senate Foreign Relations Committee, 
I am honored by the opportunity to discuss with you today the situation 
in Sudan and the important challenges that lie ahead. As you noted in 
your invitation to testify, the coming months clearly bring a series of 
critical decision points for policymakers in Khartoum, Juba, 
neighboring capitals, and here in Washington as well. I will focus my 
remarks today primarily on the road to the referenda in January 2011, 
the post-2011 planning and capacity-building that need to continue at 
an accelerated pace, and issues of peace, accountability, and security 
for Darfur.
    Prior to January 2011 there are a number of tasks to be undertaken 
in a short time period. The United States and the international 
community in general must be prepared to assist the parties in this 
endeavor to help maintain peace and stability in Sudan and the region. 
Before we look ahead, though, it's important to take a moment to take 
stock of some of the most important recent developments.

  <bullet> Chad and Sudan have made notable progress in their bilateral 
        relationship, moving toward stopping the long-running proxy war 
        among rebels from both states and ending support to the rebels, 
        deploying a joint border monitoring force, and opening the 
        border between the two countries on April 14.
  <bullet> Peace talks under the auspices of the U.N. and African Union 
        in Doha have resulted in unification of some Darfur rebels into 
        two groups and involved civil society in preparations for 
        negotiations. However, the Darfur rebel leader with the most 
        popular support among the Fur, Abdul Wahid, has refused to 
        participate in the talks. The Justice and Equality Movement--
        the most militarily significant rebel group in Darfur--last 
        week suspended its participation in the talks amid new reports 
        of clashes with government forces in Darfur.
  <bullet> In April, Sudan held its first multiparty elections in 24 
        years in a largely peaceful manner. We share the serious 
        concerns expressed by the Carter Center, the European Union, 
        and other organizations that undertook election observation 
        missions about widespread logistical and administrative 
        challenges and procedural irregularities, restrictions on civil 
        liberties, some cases of fraud, harassment by military and 
        security services, and that the ongoing conflict in Darfur did 
        not permit an environment conducive to elections. We also have 
        concerns about the tabulation process. As these observation 
        missions have also noted, the elections failed to meet 
        international standards. There were some positive outcomes from 
        these elections, in addition to fulfilling a Comprehensive 
        Peace Agreement (CPA) milestone. Dozens of registered parties 
        and thousands of candidates participated, and over 10 million 
        votes were cast, according to the National Elections 
        Commission. The elections period also saw renewed engagement by 
        civil society groups and increased civic participation among 
        the populace.

    We cannot ignore the challenges that continue to exist, and there 
is daunting work ahead. There are less than 8 months remaining until 
the referenda. Before those votes take place, there are important 
issues in the CPA that must be resolved, including:

    1. North/South Border Demarcation: Earlier this year the parties 
approved a report detailing undisputed areas of the North/South border, 
but they need to agree on remaining disputed areas and urgently begin 
demarcation.
    2. Southern Sudan Referendum Preparations: The parties must 
finalize composition of the Southern Sudan Referendum Commission, to be 
approved by the newly formed National Assembly, and these bodies must 
immediately create plans to undertake voter registration and develop 
voting procedures within a very tight timeline.
    3. Abyei Referendum Preparations: In addition to finalizing the 
composition of the Abyei Referendum Commission that must create similar 
plans, the parties must also resolve sensitive questions around who is 
eligible to vote in Abyei. The Abyei boundary must also be demarcated.
    4. Popular Consultations for Southern Kordofan and Blue Nile: 
Technical committees have begun planning, but commissions to be created 
from newly elected state assemblies will undertake the actual 
consultations. Postponed state-level elections in Southern Kordofan 
must first take place before this state's commission can be formed.

    The above issues are complex and it is clear that time is limited. 
The NCP and SPLM must work together in an atmosphere of open dialogue 
and trust, consulting with other Sudanese stakeholders as necessary to 
ensure broad support. These CPA issues recently took a back seat to 
electoral preparations, but now the parties must refocus and intensify 
their implementation efforts. Both the government in Khartoum and the 
Government of Southern Sudan are in the process of reallocating 
positions based on electoral results. In the coming weeks following the 
elections, they will need to quickly appoint credible ministries and 
institutions that are able to gather support for the tough decisions 
that lay ahead.
    As we look to the referenda, which are stipulated by the CPA and 
enshrined in the Interim Constitution of Sudan, we have carefully 
considered possible scenarios for which the international community 
should be prepared. The scenario we'd like to see is outlined in the 
CPA: credible and peaceful referenda are undertaken during which 
Southern Sudanese choose unity or secession, and the people of Abyei 
choose whether to remain with the North or join the South. In this 
scenario the outcomes are respected by the National Congress Party 
(NCP), the Sudan People's Liberation Movement (SPLM), other political 
parties and Sudanese citizens, as well as the international community, 
including those who signed on to the CPA as witnesses and supporters of 
implementation of the CPA in 2005. We must also be prepared to respond 
to less favorable scenarios.
    We are mindful that the end of the Interim Period will change the 
relationship between the north and south, regardless of the outcome of 
the two referenda. We continue to strongly encourage the parties to 
formalize a framework for negotiations on post-CPA issues. The critical 
issues for agreement will include: citizenship, management of natural 
resources such as oil and water, the status of transboundary migratory 
populations, security arrangements, and assets and liabilities. 
Agreement on such issues is necessary both to inform the choices of 
voters and to ensure a smooth post-2011 transition. We are committed to 
helping mobilize and coordinate international efforts underway to 
assist the parties with these negotiations. We must be prepared to 
invest substantial political and diplomatic energy, as well as 
technical assistance, to ensure that political will is fostered and 
agreements are not only reached but also implemented. Only with 
sustainable arrangements will the parties be able to navigate the many 
hurdles coming in 2011 and beyond.
    Whether or not Southern Sudan becomes independent in July 2011, and 
regardless of whether it includes Abyei or not, the Government of 
Southern Sudan will require effective leadership as well as 
strengthened capacity to undertake effective and accountable 
governance, provide security, and deliver services to its citizenry. A 
robust, concerted international effort will be required to assist in 
this capacity-building effort.
    In order to assist in building up the capacity of Southern Sudan, 
we are undertaking a ``Juba Diplomatic Expansion'' to include staffing 
and material assistance on the ground in Sudan to support USG foreign 
policy objectives. Operating under Chief of Mission authority, staff 
from the Coordinator for Reconstruction and Stabilization (S/CRS) and 
the Civilian Response Corps (CRC) will provide support to Consulate 
General Juba and complement USAID's robust presence in the runup to and 
following Southern Sudan's January 2011 referendum. Staff is assisting 
in strategic and contingency planning, program oversight, and technical 
assistance, both in Washington and in the field.
    In keeping with President Obama's emphasis on multilateral efforts 
in Sudan,we are working closely with our partners in the international 
community through the Troika, Contact Group, and ``E6'' group of 
envoys. We have an ongoing dialogue with key regional organizations and 
states, including the African Union, European Union, Arab League, 
Sudan's nine neighboring states, China, Russia, and others. We also 
regularly engage with the United Nations on U.N. missions in Sudan. 
With substantial U.S. input, the Security Council recently renewed the 
mandate of the UNMIS peacekeeping mission, emphasizing the need for the 
mission to continue its support to the CPA parties to implement all 
aspects of the CPA, and requesting that UNMIS be prepared to assist the 
parties in the referenda process. Promising new leadership on both 
Sudan peacekeeping missions bodes well for future mission operations. 
The parties have much to do in the final phase of Sudan's Interim 
Period and it is our sincere hope that strong international engagement 
will further bolster these efforts.
    While much attention will be focused on the North-South process 
over the next year, we continue to work on Darfur and the many 
important unresolved issues there. A definitive end to conflict, gross 
human rights abuses, and genocide in Darfur remains a key strategic 
objective, as made clear in the U.S. Strategy on Sudan. Violence 
continues in and there are credible reports of continued aerial 
bombardments by the Government of Sudan. This is unconscionable and we 
have called on the government to immediately renew its cease-fire. 
Following progress in Chad-Sudan relations earlier this year, the 
Darfur peace talks in Doha saw positive progress with the signing of 
two framework agreements between the Government of Sudan and Darfur 
rebels in February and March. We are concerned about the Justice and 
Equality Movement's decision to leave the peace talks and are 
encouraging them to return to the negotiating table The U.N. and 
African Union are now working hard to include the voices of civil 
society representatives in the process, implement a cease-fire on the 
ground, and enter into meaningful and productive political negotiations 
between the parties. While issues such as cease-fires, power-sharing, 
and wealth-sharing can be addressed at a high level in Doha, we need to 
think more creatively about how to bring the people of Darfur into 
local conversations about compensation, land tenure, and rebuilding 
their communities. Additionally, as stated in the U.S. Strategy on 
Sudan, accountability for genocide and atrocities is necessary for 
reconciliation and lasting peace. In addition to supporting 
international efforts to bring those responsible for genocide and war 
crimes in Darfur to justice, we are consulting closely with our 
international partners and Darfuri civil society on ways to strengthen 
locally owned accountability and reconciliation mechanisms in light of 
the recommendations made by the African Union High Level Panel on 
Darfur led by former South African President Thabo Mbeki.
    Local peacebuilding, rule of law, and reconciliation activities 
must be revived and strengthened. We should not wait for a negotiated 
political settlement to begin improving the lives of Darfuris. For 
instance, we are supporting the role of women in peacebuilding and 
working on the imperative of reducing gender-based violence in Sudan. 
One of the administration's highest priorities for Darfur is to improve 
security so that the people on the ground who have suffered so greatly 
can see a tangible improvement in their living conditions. We continue 
to work closely with UNAMID and relevant stakeholders to enhance 
protection of civilians, expand humanitarian space for the delivery of 
life-saving assistance, and consolidate gains in stable areas to 
prepare for the voluntary return of people to their homes. This is not 
an easy process, but it's one international donors must undertake with 
great urgency. We are also working with our international partners to 
improve access for UNAMID and humanitarian workers to areas still 
affected by fighting between government and rebel forces, such as Jebel 
Marra and Jebel Moon, as well as intertribal fighting, especially in 
South Darfur. We are also working with the U.N. and other key partners 
on a plan to provide increased security in the triangle that is formed 
by El Fasher, Nyala, and El Geneina, where up to half the population of 
Darfur lives. In the long term, it is imperative to address the 
underlying causes of conflict, including disputes over land and water 
resources. This will require the cooperation of the Government of 
Sudan, vigorous diplomacy by the United States, and sustained support 
from the international community.

    The Chairman. Well, thank you, General. We appreciate the 
summary very much, and we look forward to a chance to have this 
dialogue.
    Do you agree, first of all, with Admiral Blair's 
assessment, which both Senator Lugar and I put forward today?
    General Gration. Yes, I do, sir.
    The Chairman. You do. And where would you place--I mean, at 
this point in time, post-election and given the dynamics, where 
would you place us on that course, at this point?
    General Gration. I think we have to redouble our efforts. I 
think the international community----
    The Chairman. Is it safe to say we're behind?
    General Gration. We are, sir.
    The Chairman. How far behind?
    General Gration. I think it's possible to get done 
everything we have to get done, but we can't waste another 
minute. The time is now.
    The Chairman. Exactly what--give me the order of priority. 
What has to happen here to make this work?
    General Gration. There's three things that have to happen. 
The first is that we have to take the lessons from the 
elections and turn them into solutions for the referenda. There 
has to be better voter education. There has to be a better 
system of logistics and procedures and administration. And 
there have to be processes put in place. And that means that 
the referendum commission has to be appointed by the National 
Assembly. They have to be financed and they have to be given 
the training.
    I worry about the diaspora registration. This registration 
will be so complex--and it happens in July 9--that's when it 
starts--because they have to register people in countries 
outside, in 14 different nations, and they don't have the 
system of chiefs to do that. And there's sometimes not the 
requisite birth certificate and those things to prove residency 
of the South. These are issues that have to be resolved. And 
I'll move quickly. But, we have to learn the lessons and do the 
preparation. That means that ISIS, the international monitoring 
teams, have to be on the ground right now, working not as 
referees that throw in a red card, but as coaches and folks 
that can help make this successful. Because if we're not 
successful in achieving a referenda that is credible from 
international standards and represents the will of the people--
and so, they say, ``Yes, my will has been acknowledged,'' and 
that the North can recognize that, I believe it's going to be 
problematic.
    The Chairman. Will all of those steps require the 
cooperation--in fact, the full, almost, leadership of the 
North?
    General Gration. Many of them do. But, the South has a very 
important role, because it's really--it's a joint effort. And 
if it's not just a North issue and it's not just a South issue; 
there's got to be a lot of work together. And the international 
community has to be part of this, as does the regional partners 
in Africa.
    The Chairman. But, it's also fair to say that, I mean, the 
North has obvious reservations about the outcome of that 
referendum. Has anything shifted in their attitude about that? 
Do they fully expect that referendum to produce a separate----
    General Gration. Yes, sir. In my conversations with leaders 
in the North, I believe they do. They recognize this has to 
take place. But, I would also say the second and third aspects 
that we have to do in the short term is, we have to get 
agreements on the post-2011 issues of which oil revenue 
allocation is the most important issue.
    The Chairman. Who's driving that right now, General?
    General Gration. It's got to be both. And they've set up an 
agreement, where there's three members of the South and three 
members of the North and an executive committee. Those groups 
are going to start talking. But, it has to happen as soon as 
possible, because these are tough issues. And there's other 
things that have to happen, in terms of, maybe an audit and 
maybe some more technical----
    The Chairman. Is there a referee or catalyst for that right 
now?
    General Gration. They've asked the Norwegians, because of 
the history that they've had with the oil, to help. They've 
also asked us to help as technical advisers. And we've also 
been working with Chatham House and other people to come up 
with some options for them, looking at other wealth-sharing 
arrangements like with the pipeline that goes from Chad to 
Cameroon, the TBC, and things like that. So, we'll continue to 
provide the technical advice.
    But, now I believe it's not any more time left for study. 
We have to start making the negotiation, and we need to 
encourage both the North and the South to do that as soon as 
possible.
    The last issue you mentioned, though, is the border 
demarcation. Without a clear boundary, it's going to be very 
difficult for the South to move on with independence. And so, 
we have to move very quickly to get the President and the 
Presidential organization to issue the report and then to start 
working out those areas where there's conflicts and start 
demarcating those areas where there's agreement. That has to 
happen--all these things have to happen by November.
    The Chairman. We were the essential ingredient of the 
creation of the CPA itself.
    General Gration. Yes, sir.
    The Chairman. Are they still accepting our stewardship/
leadership, with respect to these priorities you've just 
described, in the same way?
    General Gration. Very much so. But, we also need to have 
other people step up to the plate. We're not going to walk away 
from our leadership and our commitment, but we have to have 
more people join with us. And this would include the 
international community and it would include members of Africa 
nations. It would also include the U.N. And that's why we're 
reaching out in a very concerted way to expand our team; not 
that we're stepping away, but to make sure that other people 
step up to the plate. And this become an international issue to 
resolve, and not a U.S. issue to fix.
    The Chairman. General, do you believe that you have the 
tools that you need, yourself, in order to meet that schedule? 
Or do you need something more than you have today?
    General Gration. The President has been superb and have 
given me everything I've asked for. The Secretary of State, 
Secretary Clinton, has just been marvelous--and her team.
    Now, obviously, as we go into this period, if the South was 
to choose independence, there are things that have to happen. 
And we're in consultations right now assessing the various 
options. And certainly, we will be coordinating with the 
Congress, because there are things that will, I believe, in the 
out years, require a change in allocation of resources and the 
way we do business--in the South especially, but also in the 
North.
    The Chairman. So, you're saying that part of the next few 
months has to be dedicated to preparing for the expectation 
that there will be a declaration of independence, and we're 
going to have to deal with a very fragile state at that point. 
Is that correct?
    General Gration. That's correct. If they choose unity, 
that's pretty easy. If they chose independence, I believe that 
there's much work that has to be done in the very near future.
    The Chairman. Are you confident that if they choose 
independence and--let's put it this way. If the modalities are 
worked out--the oil, the boundaries, et cetera--I assume your 
judgment would be that, if they choose independence, and that's 
worked out, that the prospect for violence goes down 
significantly. But, if the oil issue is outstanding and the 
boundaries remain outstanding, the odds of violence are very 
high. Is that----
    General Gration. That would be my assessment.
    The Chairman. Thank you.
    Senator Lugar.
    Senator Lugar. General Gration, the Comprehensive Peace 
Agreement, as we understand it, was a complex series of 
agreements. Can you describe the other arrangements that are 
often lumped together as a ``complex series of agreements'' 
that are a part of this CPA?
    General Gration. Yes. And in response to Senator Kerry, I 
just listed those that are really make-or-breaks.
    Senator Lugar. Right.
    General Gration. But, you're exactly correct. We have been 
able to work with the Sudanese in what we call our ``trilateral 
talks,'' to reach agreements on all aspects of the CPA. But, it 
really means that other things have to happen. First of all, 
the national election law has to be changed to give the South a 
blocking majority; an extra 40 seats. And there's other seats 
that have to be happening.
    Senator Lugar. And that has to happen through the 
Sudanese----
    General Gration. Right.
    Senator Lugar [continuing]. Parliament.
    General Gration. We expect it to happen somewhere the 1st, 
or sometime after President Bashir is inaugurated.
    Senator Lugar. I see.
    General Gration. The second thing that has to happen is 
that we have to, as I said, do the border demarcation. And 
that's--and the popular consultations--and those are part of 
the CPA.
    But, there's a whole lot of issues on top of the CPA that 
are looming. And things like, What happens to the citizens if 
they were to choose independence? And we have to work through 
that. Things like debt relief. Things like assets and 
liabilities. Whose currency will we use? How do we establish 
the reserves? And we're having to work with the IMF and the 
World Bank on those issues. Things like airspace control. Who's 
going to--How do you do that transition from the North, who now 
is responsible for airtraffic control and navaids, to moving 
that to the South?
    So, sir, there's a wide variety of issues that cross all 
aspects of government that we're going to have work through. 
So, my belief is that there will be independence, but there 
will be a time where these other functions are transitioned in 
a methodical and a safe and a secure way to the South.
    Senator Lugar. Now, when you use the phrase ``We will need 
to do these things,'' are you speaking about the United States? 
Are you speaking about the United States plus Norway? The 
United Kingdom? Other African states? If you were asked to 
describe the organization of the reponsible parties, how would 
you respond to that?
    General Gration. I would respond that, ultimately, it's the 
North and the South that have to meet agreements. They live 
there. They're going to live with--the longest border that they 
have with any country is going to be between the North and the 
South, should they choose independence. And they're the primary 
actors that have to reach agreements and implement.
    The second tier are those neighbors, those nine countries 
that live, bordering them.
    And then, the third tier is the rest of Africa. And Africa 
should be helping Africans. And that's why we're working very 
closely with the Africa Union to make sure that they're engaged 
and are part of the solution.
    Then there's that tier of support and influence and 
leadership that comes from the international community. And it 
stretches from China and Russia, certainly Europe, but it also 
stretches to Asia and South America. This is a global issue 
that requires an international solution.
    So, when I say, ``we,'' it's in the very broadest terms. 
And while the United States can't own it, there's leadership we 
can bring; there's resources and technical abilities that we 
can bring. But, certainly we have to do this in concert and in 
a collective way with all of our partners.
    Senator Lugar. But, as you suggest, somebody really has to 
lead this. The importance of negotiations between officials 
from the North and South are obvious. But, even then, someone 
in the South or the North would have to pull together a team 
designated to talk to other parties.
    The question I'm trying to reach is, Do you and your staff 
have the ability to liaise with outside actors? For example, 
you mentioned ISIS, the international group that work on 
elections. Can you call them in and say, ``You know, we really 
need to have application by your folks now so that people 
understand the election procedures''?
    General Gration. We're committed to doing everything we 
can, and everything we need to do, to do exactly that. And, in 
many cases, we can have a leadership role that's direct. Some 
places we have to have an indirect role. And where we use 
influence and the power that all of our government has in.
    And this is where Congress can be very useful, too. You 
have an opportunity to meet with people that come through the 
Senator Foreign Relations Committee, and if we can work to 
elevate Sudan in the inboxes of all these national leaders, 
that would be very useful. But, we have to continue to do that. 
And we have to continue to use other partners to use influence.
    But, you're exactly right that there are certain areas that 
have been carved out for the AU, for example, and the U.N. But, 
there's certain areas that we're going to all have to jump in 
an fix. And if the United States has to step up, certainly we 
want to make sure that failure is not an option and success is 
what we achieve.
    Senator Lugar. Hypothetically, if a referendum was held and 
it was deemed very clear that the result was independence and 
independence was subsequently declared, at that point, who, 
physically, in the South, takes charge? In other words, if 
there is to be the negotiation, first of all, on the building 
of the institutions, quite apart from dealings with the North, 
who, physically, is empowered by this type of result of a 
referendum in Sudan to do something?
    General Gration. Well, we've had elections in the South, 
and President Kiir, who runs the autonomous state of Southern 
Sudan, and the Government of Southern Sudan will continue to 
have the lead. And----
    Senator Lugar. He'd be recognized, clearly, because of the 
previous election.
    General Gration. Yes, sir.
    Senator Lugar. Yes.
    General Gration. So, he would continue to have the lead, 
along with his party, which is the SPLM, and the leaders in 
that party. And they've already been posturing for this. 
They've already been working out who is going to actually have 
the lead on these negotiations, both with the IGAD and the AU 
and those things, but also with the North.
    And, historically, it's been Riak Mashar who has been 
working together with other partners. But, we'll see, as they 
reorganize their government, who will actually be the interface 
with the NCP.
    Senator Lugar. How many people do you have on your staff 
supporting you in your role as special envoy to Sudan? For 
instance, with regard to the Pakistan situation, as things are 
improvised, maybe a staff of 30 or 40 people have been cobbled 
together. What sort of a group do you have?
    General Gration. We have a core group that comes out of the 
State Department. And that's around 20 now, with interns and 
folks that we have on fellowships and that kind of thing. But, 
then we've also been able to get help from other agencies who 
have seconded people to us. And so, we run--people that are 
actually working full time on Sudan--around 30--28 to 30. But, 
that number's going to go down in the summer, and some of the 
people that we have for those fellowships may not get replaced.
    But, the State Department is working through us. We're 
working very closely with Pat Kennedy. And I've got to tell 
you, my belief is that we're going to have the capacity that we 
need to do the job that we must do.
    Senator Lugar. Well, that's good news.
    General Gration. Yes, sir.
    Senator Lugar. Thank you.
    Senator Feingold. Thank you, Senator Lugar.
    General Gration, welcome.
    And I certainly want to thank Chairman Kerry for holding 
this very important hearing.
    Let me first express my support for the Obama 
administration's effort to scale up our diplomacy and 
development efforts in Southern Sudan to prepare for the 
referendum and its aftermath. And, as you said, the stakes of 
the coming months are incredibly high, not only for Southern 
Sudan, but for the entire country, as well, and for the region.
    We must do all we can to ensure that the referendum is held 
on time, and that it is held fairly and peacefully. And we must 
help the Southern Sudanese to get a handle on the many 
security, development, and governance challenges before them.
    At the same time, we have to be ready for all possible 
scenarios, including one in which the National Congress Party 
seeks to destabilize or disrupt the agreed-upon process at the 
same time that it escalates the crisis in Darfur, or foot-drags 
on efforts to bring about peace.
    I've expressed concern at different times, including during 
the runup to last month's election, that the administration has 
not spoken out more forcefully about the abuses by the NCP, or 
sought to hold them accountable. And although I am not opposed 
to engagement, we need to be firm and to be sure that any 
engagement is based on actual evidence that the NCP is willing 
to cooperate and has made concrete progress on previous 
problems.
    So, General, let me ask you a few questions. In your 
discussions of the NCP, what have you conveyed would be the 
consequences if they take actions to disrupt the referendum 
process? Have you prepared a way in which we would act in that 
scenario?
    General Gration. Obviously, these are decisions that would 
have to be made through the process--decisionmaking process 
that goes through the National Security Council. But, certainly 
we've been very clear that we will not tolerate obstacles or 
roadblocks or messing with the referenda. We believe that it 
needs to happen on time, and we believe it needs to happen in a 
way that reflects the will of the people. And so, rigging, 
messing with, or destabilizing would be things that we would 
condemn. And there would be consequences that are negative.
    We believe, also, that when it comes to applying these 
pressures, that if we can get a community of nations to work 
with us, that these pressures will be more effective when the 
international community is on board. And that's why we're 
working very hard to make sure that the international community 
is seized with this issue, that they also understand the 
importance of the referenda, and that they are partners with 
us, so that when it comes time to apply pressures, when it 
comes time to make sure that this referenda goes forward, that 
it's the whole international community that brings pressure to 
bear on the North.
    Senator Feingold. I appreciate what you said. But my 
question was: What would the possible consequences be? And are 
we in the process of preparing, or have we prepared, a scenario 
if they act this way? I don't want to just hear about what the 
process would be. I want to know if it's happening. Are we 
ready?
    General Gration. We are ready. These discussions take place 
in the administration, in the National Security Council, and 
certainly have been taking place in the State Department. Many 
of these things, for obvious reasons, are things that we don't 
talk about in public. And we'd be very happy to come up here, 
as we have in the past, to brief the staffs on the options that 
we have available, should the scenarios warrant.
    Senator Feingold. Well, I appreciate that some of this 
shouldn't be shared in this setting. But, is there anything you 
can share, with regard to the types of consequences that this 
government may suffer if they mess around with this situation?
    General Gration. Well, obviously, what they want is to be 
unyoked from sanctions, to get legitimacy, to move into the 
circle of nations that are respected. And so, to take that away 
would be a big thing. You know, in other words, to condemn, to 
further isolate, to marginalize them would be something that I 
believe would have a strong effect.
    But, the range, beyond that, of things that we can do is 
great. And they include things that we briefed with your staff. 
But, we can give you more specifics on that.
    [A written response by General Gration follows:]

    I am willing to brief you and any other Members and cleared staff 
about the details of the strategy in an appropriate setting.

    Senator Feingold. I look forward to that.
    General, I have been very concerned, also, by the level of 
violence within Southern--South Sudan. As you know, 
humanitarian groups report that over 2,500 people were killed, 
an additional 350,000 were displaced, by interethnic and 
communal violence in 2009 alone. And the Lord's Resistance Army 
continues to foment terror in the southwestern corner of the 
country. To this end, what can be done by the SPLA or the U.N. 
peacekeeping mission? How can we help strengthen the existing 
disarmament program in order to reduce these levels of violence 
and protect the civilians during this very turbulent period?
    General Gration. This is a focus of our shop. We right now 
are putting together a conflict mitigation package that looks 
at everything from the ground level of sensing and figuring out 
where these conflicts are, and then works all the way up 
through the top of the government and the command-and-control 
system.
    The deal is, is that, in many ways, we haven't gotten out 
in front of these things, because we don't know that they're 
happening until they've happened. And so, our response has 
really been to take note and to write a report. And that's sort 
of what's been happening with our U.N. folks, the same. We want 
to be able to get in front of these situations, to have a 
mobile and an agile force that can get to these problems before 
they occur. And so, we're working on conflict mitigation teams, 
giving them the communications that they need, giving them the 
mobility they need, and to try to get out in front of these 
problems before they happen.
    This is also something that we're trying to do in Darfur. 
We're concentrating on an area between the three major cities 
that includes Jebel Marra. But, conflict mitigation, increasing 
the security mechanisms, and the infrastructure are primary 
things. Because, if you look at all the problems that we have, 
we can't do development, we can't do early returns, we can't 
move on to governance, we can't put in place security--I mean, 
social infrastructure and economic infrastructure, because of 
the insecurity. So, insecurity and stability are high priority 
for this administration, and we're working on just that.
    Senator Feingold. And in regard to Darfur, despite some 
small successes, obviously the situation there remains 
unresolved. Over 2 million people--displaced people--still 
living in camps. And earlier this week, the JEM rebel groups 
suspended their involvement in peace talks after alleging that 
the Sudanese Government has launched fresh attacks on Darfur.
    First, from what you know, is there any truth to these 
allegations? And second, what impact has--which you've referred 
to--the Chad-Sudan rapprochement had on the potential for 
viable peace talks?
    General Gration. We were encouraged when the agreements 
were made. And you're exactly right that when we started, on 
the 15th of March of last year, we anticipated that we'd be 
able to finalize the cease-fire and get agreements on power-
sharing, wealth-sharing, and compensation. This did not happen. 
And it's true that the JEM has walked away and has taken back 
to guns.
    We understand that there has been some fighting going on in 
eastern part of Darfur. We don't know the details yet, because 
UNAMID hasn't been able to get out there to look at that. But, 
we'll keep an eye on that. And we certainly condemn any kind of 
offensive action on either side. And we've said that publicly, 
and we've said it privately. And we'll continue to work with 
all of our partners and the U.N. to make sure that this doesn't 
continue. We prefer a negotiated settlement that's lasting. And 
we're very disappointed with this increase----
    Senator Feingold. But, you have not denied here that the 
Sudanese Government has launched fresh attacks on Darfur. You 
have not confirmed it, but you have not denied it. Correct?
    General Gration. I believe that they have.
    Senator Feingold. OK.
    General Gration. But we're trying to get the extent of 
those. What would happen is, if I could just explain a little 
bit, it's our understanding that when President Deby and other 
people made an agreement with Khalil Ibrahim, the head of the 
JEM, that they were supposed to stay in the area around Jebel 
Moon and in camps. During the negotiations that have happened 
over the last 2 months, they have moved to the east and the--
SAF, I believe, in recent days, has retaliated against them.
    But, again, we condemn this. We condemn all offensive 
action. And we want them to go back to the table. We believe, 
on the 15th of May, the Government of Sudan will come back to 
Doha, and we hope, at that time, that Khalil Ibrahim will bring 
his team back also.
    Senator Feingold. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    General Gration, our country owes you a debt of thanks. You 
have what may be the most complex and difficult envoy 
appointment in the history of the United States. And I think 
your predecessor, Mr. Williamson, would have agreed to that, 
after he left.
    I would like to follow up on the Senator from Wisconsin's 
question and your comments about conflict mitigation teams. I 
have been to the Darfur region of Sudan. I have also listened 
to testimony at previous hearings on Sudan. I remember the 
previous administration never had the logistical capability to 
really do the job it wanted to do. Do you have the tactical and 
logistical capability to get conflict mitigation teams to the 
places they need to go, either through what you have at your 
disposal or cooperation with UNAMID or the other people 
involved?
    General Gration. Yes, sir. I believe we're reaching that 
point. For example, you're exactly right that UNAMID was in a 
buildup point, up until now. And now, we're encouraging them to 
start patrolling the roads; get out of the super camps, get out 
of the three cities, and get out and start patrolling the roads 
between Nyala and Fasher and El Geneina. And we believe that, 
just as we've seen in the past, as they started patrolling 
between southern Kordofan and Darfur, that taxis and transports 
and people started following the security of the UNAMID 
vehicles. And the--we believe that if they can get out--and 
then the NGOs--there's 15,000 NGOs and people that are working 
on everything from stability to early recovery to development, 
that are just hunkered down in the three big cities. And we've 
got to get them out of the towns and into where the people need 
some help. And I believe that, if UNAMID can get out of the 
cities and start patrolling the roads, that that will improve.
    But, we also have to hold the Government of Sudan 
responsible. In reality, it's the government of the country 
that's responsible for its people. And I understand that that's 
going to be difficult for a while, but they also have to become 
part of the solution. And we're pushing them and working with 
them to make sure that they, too, control the banditry, control 
the Janjaweed, and control those things that they may have more 
control over than the UNAMID forces. And if that all happens 
together, we may be successful. But, it's going to be an uphill 
battle.
    Senator Isakson. On that point, in March 2009 the 
Government in Khartoum expelled 13 NGOs operating in Darfur. I 
happened to travel to Darfur with Senator Corker about 3 months 
later. I think Chairman Kerry had been there a couple months 
before. Has the Government in Khartoum behaved itself better, 
vis-a-vis the NGOs that are there trying to deliver 
humanitarian assistance to the Darfuri people?
    General Gration. It's difficult to tell if they have. But, 
what has happened is that the increase in banditry, carjacking, 
kidnappings, and the basic unrest that is at the local level--
not at the strategic proxy-war level, but at the local level--
has prevented people from getting outside of the towns. And 
that's why security and getting rid of the banditry and the 
Janjaweed and the roadblocks is absolutely what has to happen. 
And then, when that happens, maybe the government can move on.
    But, I will tell you, sir, what's happened is that we've 
been able to work through the ways that we've been able to 
cobble together--and NGOs and the United Nations fill in the 
gap--we've been able to work on food and health and sanitation 
and water. What we're missing is those things like gender-based 
violence, treatments, mitigation. And there's some aspects of 
the NGO expulsion that we haven't been able to restore. Those 
are the things we have to work on, in this next phase, very 
hard to make sure that individuals feel safe when they go out, 
and women are not put at risk of rape, and that people have a 
system that, when they're wronged, they can get it righted 
through a system of justice and a rule of law and a pattern of 
order. Those are the things that we have to get, because while 
we're making great strides, in terms of rebel unification and 
Doha and the rapprochement, it has not changed the lives of the 
people on the ground. They're still living in dire conditions. 
They're still having gross human rights abuses, just because 
they don't have a way out. And this has to become a priority 
not only of the United States, but of the Government of Sudan 
and the international community.
    Senator Isakson. Well, I know a year ago the incidents of 
rape and gender-based violence had started to decline in 
Darfur. From your statement I take it that it is picking back 
up again, or is it----
    General Gration. No, it has started to decline. You're 
right. And even the number of deaths. And last year we dipped 
down to where only 16, what we call, ``excess deaths,'' or 
deaths related to conflict. But, the reality is, if there's 
one, there's too many.
    Senator Isakson. Right.
    General Gration. And therefore, if there's a single woman 
who's raped, that's bad. And if there's a single fatality, of a 
civilian that's caught up in this conflict, it's unacceptable. 
And we're going to drive this to zero.
    Senator Isakson. Will the vote on the referenda take place 
next February? Is that right? Is that the target date, or is it 
April, or----
    General Gration. What's happening is, the referenda has to 
be completed 9--or 6 months prior to the end of the interim 
period. So, technically--and now the South is asking for the 
referenda to actually occur in the early part of December so 
that they can count the votes and then make the announcement on 
the 9th. That's a little bit different than what we were aiming 
for before.
    Senator Isakson. Right.
    General Gration. But, we'll have to see how that 
progresses. But, actually, January is the big date we're 
driving for.
    Senator Isakson. Of next year?
    General Gration. Of 2011, which could mean that 
independence could come as early as the 9th of July, should the 
South choose independence.
    Senator Isakson. Last question. And I apologize that I 
missed your verbal testimony, but I've been trying to scan the 
prepared text beforehand. In it, I see you say that they have 
made progress on relationships in Darfur, particularly with the 
proxy war. That was the one with the Chadian rebels and the 
Janjaweed. Is that correct?
    General Gration. Yes, sir. As you remember, a year ago, the 
Chadian rebels that were supported by the Government of Sudan 
actually came within a half a mile of President Deby's palace, 
and the JEM got within 13 miles of Bashir's. That situation has 
ended.
    Senator Isakson. And so we have a better climate there, as 
far as that proxy war is concerned?
    General Gration. Assuming that it doesn't start up again. 
But, right now, President Deby's doing the right things in 
Chad, and the Government of Sudan is doing the right things 
with their Chadian rebels. And I believe that's not going to be 
an issue at the strategic level anymore. But, at the tactical 
level, we're having these things that Senator Feingold talked 
about.
    Senator Isakson. Thank you for your service, General.
    General Gration. Thank you.
    Senator Casey. General, thank you very much for your 
testimony, and especially for your remarkable public service. 
As Senator Isakson noted, it doesn't get more difficult than 
the assignment you have. We're grateful for your service, a 
continuation of service to the country which goes back a number 
of years. We're grateful for that.
    And in particular, I wanted to follow up some of the 
questions Senator Isakson had as it relates to the--I guess, 
the general topic of what has happened and what is happening 
now with regard to aid organizations. I know you played an 
instrumental role in the reentry of those organizations into 
the country. But, I wanted to get your sense of that, 
generally, in terms of the impact of the expulsion or the--if 
any--the continuing impact of that expulsion.
    Second, to have a conversation about efforts that you have 
made, and will continue to make, to reduce gender-based 
violence. How do we do that? What are the steps to implement? I 
know you spoke of it a moment ago. And in your testimony, I 
know you cite the, ``imperative of reducing gender-based 
violence in Sudan.''
    So, I guess, generally, two questions: One on the--kind of, 
the status of the impact to the aid organizations, or the 
impact of not having them there for a period of time; and then, 
second, the gender-based violence, the strategy to combat that.
    General Gration. As I pointed out before, we did make great 
gains to stop what could have been an absolute disaster. There 
was 1.2 million people at risk. We lost, in some places, 85 
percent of the capacity. That has come back.
    The problem is, that because of the violence and the 
carjackings and the banditry, it came back in a more 
centralized way in IDP camps. And while the number--we really 
don't know if it's 2.0 or 2.7--there are still too many people 
in IDP camps. But, the problem is, is that we've gone into a 
mode of sustained relief. And we're entering our 7th year of 
sustaining people with food and health care and things. And 
it's great we're doing that. But, at some point, we have to 
break that mold, and go into sustainable recovery and 
development, where people get an opportunity to go back to 
their lands, under Hakura, where they get to be able to have 
farms and get herds again and move out and establish villages 
and homelands. That has to change. And so, what's happened is, 
is that we did, but we consolidated, and we made it more of an 
institution. We have to break out of that.
    But, that ties in a little bit with gender-based violence. 
There's the institutions that have to change in Darfur. We have 
to make it possible for women to be part of the police force. 
We have to make it possible that they not only work on women's 
programs, like right now what we're doing, collecting firewood 
and making that easier, and solar--and all those are important 
things, but they have to be integrated more into the society. 
And I believe that, when those things happen, that some of 
these issues may decrease even further.
    But, in the short term, we have to provide, No. 1, a safety 
place where women who have been violated can go and get the 
treatment they need, where they can have the counseling that 
they need, and where we support those kind of programs. And 
there have to be NGOs that come in to develop those programs in 
a more widespread way. That has been an area that I feel that 
we have not been as successful as that we need to be.
    So, building the short term, but then making the 
institutional changes that give women a more prominent place 
and that give them the respect and the tools that they need to 
become contributors in a larger way.
    Senator Casey. In the short term, as it relates to that 
violence against women, is it both a resource and a structural 
question? In other words, that--as you said, they need to have 
a place to go for counseling and other services. But--and I 
realize that's--that could be both resources and structure--
but, is there a basic law-enforcement protective element that's 
missing here--that there aren't enough law enforcement 
officials that are creating the kind of order, or investigating 
an allegation of rape, or investigating an act of violence? 
What--in other words, what is it that you have to do in the 
short term? I realize the long-term question of integration is 
into--that those are longer term questions. But, short term, 
what is--what exactly do we need to have happen to bring down 
the level of violence, in addition to having extra services, 
like counseling and other services?
    General Gration. In the short term, the U.N. forces--the 
U.N./AU forces have to provide an umbrella of security--more 
than they're doing right now. In most areas, they don't patrol 
past 10 o'clock at night. And they don't patrol where the women 
have to go out and collect firewood and those kinds of places. 
I believe, in the short term, there has to be more security 
that's put on there.
    Senator Casey. How do you change that? Just those two--the 
lateness of the--you know, after 10 o'clock, when they're going 
out to collect fire--I mean, how do you change that, in the 
near term?
    General Gration. Those are things that we're actually 
communicating with the U.N. I just was up in New York, and I've 
been talking with the U.N. commanders in the field. I was with 
them on the 6th, just a couple days ago. And so--in Darfur, 
talking about all these issues of how we raise security up. 
But, we're going to have to do a better job in putting security 
zones and then security corridors where the folks do their 
seasonal migration. Those things have to happen.
    But, in addition to that, the Walis and the government have 
to put in place systems of government where people who commit 
crimes can be identified and that they're brought to justice 
and incarcerated or dealt with or punished or whatever that the 
system of law does. Right now, the problem is, is that there's 
not that system. And so, when there's crimes committed against 
women and men, that there's not a system that you can bring 
people to justice. So, the local justice system, the whole 
accountability process--it goes all the way back to 2003. Those 
are things that we're working with the international community, 
with the AU. And these have to be put in place. And we're 
already 7 years too late. And they have to become a priority. 
And it's a huge priority for me. I will continue to raise it. 
It's very important that we fix it, from a short-term relief, 
but we actually make systematic changes that will ensure that 
women are protected, that human rights are protected, and that 
people can grow old with dignity.
    And these are things that we just have to get to. And 
they--we've put them aside too long as we've concentrated on 
food, water, sanitation. But, we've got to go out and fix these 
things, because it's part of the soul, and that's so very 
important.
    Senator Casey. Thanks very much.
    The Chairman. Thank you, Senator Casey.
    Senator Wicker.
    Senator Wicker. General Gration, thank you for your service 
and for your testimony today. This has been a passion of yours 
for some time.
    Sudan has also been a passion of Congressman Frank Wolf of 
Virginia. In a letter to the President, dated May 5, 2010, 
Representative Wolf mentions his two decades of involvement in 
this country. He offers his opinion that hope is quickly fading 
in the process. He references an advertisement, placed in the 
Washington Post and in the publication Politico by six 
respected NGOs, calling for Secretary Clinton and Ambassador 
Rice to exercise personal and sustained leadership on Sudan in 
the face of what they call ``a stalemated policy.'' And Mr. 
Wolf joins what he calls ``a chorus of voices'' urging that the 
President empower Secretary Clinton and Ambassador Rice to take 
control of the languishing Sudan policy.
    Mr. Chairman, I ask that this letter be included in the 
record at this point.
    The Chairman. Without objection, it will be.
    Senator Wicker. Thank you very much.
    [The letter submitted for the record by Senator Wicker 
follows:]

                                                       May 5, 2010.
Hon. Barack H. Obama,
The President, The White House,
Washington DC.
    Dear Mr. President: ``If President Obama is ever going to find his 
voice on Sudan, it had better be soon.'' These were the closing words 
of New York Times columnist Nicholas Kristof two weeks ago. I could not 
agree more with his assessment of Sudan today. Time is running short. 
Lives hang in the balance. Real leadership is needed.
    Having first travelled to Sudan in 1989, my interest and 
involvement in this country has spanned the better part of 20 years. 
I've been there five times, most recently in July 2004 when Senator Sam 
Brownback and I were the first congressional delegation to go to 
Darfur.
    Tragically, Darfur is hardly an anomaly. We saw the same scorched 
earth tactics from Khartoum in the brutal 20-year civil war with the 
South where more than 2 million perished, most of whom were civilians. 
In September 2001, President Bush appointed former Senator John 
Danforth as special envoy and his leadership was in fact instrumental 
in securing, after two and a half years of negotiations, the 
Comprehensive Peace Agreement (CPA), thereby bringing about an end to 
the war. I was at the 2005 signing of this historic accord in Kenya, as 
was then-Secretary of State Colin Powell and Congressman Donald Payne, 
among others. Hopes were high for a new Sudan. Sadly, what remains of 
that peace is in jeopardy today. What remains of that hope is quickly 
fading.
    I was part of a bipartisan group in Congress who urged you to 
appoint a special envoy shortly after you came into office, in the hope 
of elevating the issue of Sudan. But what was once a successful model 
for Sudan policy is not having the desired effect today. I am not alone 
in this belief.
    Just last week, six respected NGOs ran compelling ads in The 
Washington Post and Politico calling for Secretary Clinton and 
Ambassador Rice to exercise ``personal and sustained leadership on 
Sudan'' in the face of a ``stalemated policy'' and waning U.S. 
credibility as a mediator.
    In that same vein, today I join that growing chorus of voices in 
urging you to empower Secretary Clinton and Ambassador Rice to take 
control of the languishing Sudan policy. They should oversee quarterly 
deputies' meetings to ensure options for consequences are on the table.
    There is a pressing and immediate need for renewed, principled 
leadership at the highest levels--leadership which, while recognizing 
the reality of the challenges facing Sudan, is clear-eyed about the 
history and the record of the internationally indicted war criminal at 
the helm in Khartoum We must not forget who we are dealing with in 
Bashir and his National Congress Party (NCP). In addition to the 
massive human rights abuses perpetrated by the Sudanese government 
against its own people, Sudan remains on the State Department's list of 
state sponsors of terrorism. It is well known that the same people 
currently in control in Khartoum gave safe haven to Osama bin Laden in 
the early 1990s.
    I believe that this administration's engagement with Sudan to date, 
under the leadership of General Gration, and with your apparent 
blessing, has failed to recognize the true nature of Bashir and the 
NCP. Any long-time Sudan follower will tell you that Bashir never keeps 
his promises
    The Washington Post editorial page echoed this sentiment this past 
weekend saying of Bashir: ``He has frequently told Western governments 
what they wanted to hear, only to reverse himself when their attention 
drifted or it was time to deliver . . . the United States should 
refrain from prematurely recognizing Mr. Bashir's new claim to 
legitimacy. And it should be ready to respond when he breaks his 
word.'' Note that the word was ``when'' not ``if'' he breaks his word. 
While the hour is late, the administration can still chart a new 
course.
    In addition to recommending that Secretary Clinton and Ambassador 
Rice take the helm in implementing your administration's Sudan policy, 
I propose the following policy recommendations:

  <bullet> Move forward with the administration's stated aim of 
        strengthening the capacity of the security sector in the South. 
        A good starting point would be to provide the air defense 
        system that the Government of Southern Sudan (GOSS) requested 
        and President Bush approved in 2008. This defensive capability 
        would help neutralize Khartoum's major tactical advantage and 
        make peace and stability more likely following the referendum 
        vote.
  <bullet> Do not recognize the outcome of the recent presidential 
        elections. While the elections were a necessary part of the 
        implementation of the CPA and an important step before the 
        referendum, they were inherently flawed and Bashir is 
        attempting to use them to lend an air of legitimacy to his 
        genocidal rule.
  <bullet> Clearly and unequivocally state at the highest levels that 
        the United States will honor the outcome of the referendum and 
        will ensure its implementation.
  <bullet> Begin assisting the South in building support for the 
        outcome of the referendum.
  <bullet> Appoint an ambassador or senior political appointee with the 
        necessary experience in conflict and post-conflict settings to 
        the U.S. consulate in Juba.
  <bullet> Prioritize the need for a cessation of attacks in Darfur, 
        complete restoration of humanitarian aid including ``non-
        essential services,'' unfettered access for aid organizations 
        to all vulnerable populations and increased diplomatic 
        attention to a comprehensive peace process including a viable 
        plan for the safe return of millions of internally displaced 
        persons (IDPs).

    When the administration released its Sudan policy last fall, 
Secretary Clinton indicated that benchmarks would be applied to Sudan 
and that progress would be assessed ``based on verifiable changes in 
conditions on the ground. Backsliding by any party will be met with 
credible pressure in the form of disincentives leveraged by our 
government and our international partners.'' But in the face of 
national elections that were neither free nor fair, in the face of 
continued violations of the U.N. arms embargo, in the face of Bashir's 
failure to cooperate in any way with the International Criminal Court, 
we've seen no ``disincentives'' or ``sticks'' applied. This is a worst 
case scenario and guaranteed, if history is to be our guide, to fail.
    Many in the NGO community and in Congress cautiously expressed 
support for the new policy when it was released, at the same time 
stressing that a policy on paper is only as effective as its 
implementation on the ground. More than six months have passed since 
the release of the strategy and implementation has been insufficient at 
best and altogether absent at worst.
    During the campaign for the presidency, you said, regarding Sudan, 
``Washington must respond to the ongoing genocide and the ongoing 
failure to implement the CPA with consistency and strong 
consequences.'' These words ring true still today. Accountability is 
imperative. But the burden for action, the weight of leadership, now 
rests with you and with this administration alone. With the referendum 
in the South quickly approaching, the stakes could not be higher.
    The marginalized people of Sudan yearn for your administration to 
find its voice on Sudan--and to find it now.
            Sincerely,
                                             Frank R. Wolf,
                                                Member of Congress.

    Senator Wicker. General Gration, the elections are supposed 
to take place in January--early January. There's talk of 
December. This is the middle of May. You've testified that 
we're behind. We don't yet know what the boundaries of these 
jurisdictions will be. As far as I can tell, we don't know what 
the boundaries of Abyei, the subdistrict, will be. We don't 
know who will be eligible to vote, even, in these elections. 
Why are we behind?
    General Gration. Well, let me just go back and say that 
certainly we respect Congressman Wolf's participation, and we 
listened very carefully to what he said.
    I will also say that Secretary Clinton is certainly in 
control of the policy of Sudan. I send her e-mails all the 
time. We have discussions all the time. And she certainly is in 
charge, along with the President, in what we do over there.
    So--but, you're right that we have a lot of work to do 
before July 2011. And the reason we're behind is probably a 
little bit historical. You know, we signed this agreement in 
2005, but we really didn't get serious about reaching the final 
agreements on the 12 outstanding issues until last year. 
Those--the agreements have been reached, but we haven't really 
finished the implementation.
    So, we know, for example, in border demarcation--we made an 
agreement that we would use the boundary that was present on 
the 1st of January 1956. Now, the implementation piece is 
making sure that we go and find, from archives, where that 
boundary was, and, where there's disagreements, that we work 
those things out.
    And we've offered our technical expertise to help with that 
process. There's about 80 percent of it now that we've been 
able to figure out. There are some areas where we'll probably 
be able to resolve relatively easily. And when I say ``we,'' 
it's the team of experts and both the North and the South.
    Senator Wicker. Is this going to require agreement by 
Khartoum?
    General Gration. They--yes, sir.
    Senator Wicker. They must agree on the boundary.
    General Gration. And the South, sure. Yes. It's their 
country and they're the ones that have to agree on where that 
boundary goes.
    But, in many cases--and certainly in Abyei, there's no 
question where the boundary is. It was laid out very clearly at 
The Hague, and it's just a matter of demarcating it. So, 
there's really no question where the boundary is. It's just a 
matter of sticking some cement pylons in to let the people know 
where the boundary is.
    Senator Wicker. OK. So, we're behind, in that respect, 
because we didn't get going on looking at those historical 
boundaries that were agreed to, back in 2005?
    General Gration. We could have probably put some more 
effort in earlier. But, the reality is, it really doesn't 
matter. The reality is, is that we're here, today, where we 
are, and we have a very tight timeline to get all these things 
accomplished. And that's why we're calling on the parties, 
we're calling on the Africans, and we're calling the 
international community to work together in a collective way to 
resolve these problems, to meet the deadlines, so that we can 
have a peaceful divorce, a civil divorce, instead of a civil 
war. That's our goal.
    Senator Wicker. Your testimony today was that we must have 
a clear boundary decided by November. Is that date part of the 
CPA?
    General Gration. No, it isn't.
    Senator Wicker. That seems to be a very late date, to me. 
Does it bother you that, possibly before a December vote, we 
would still have unresolved the issue of the boundary?
    General Gration. That's exactly why we say we would like to 
have this boundary demarcated by November, so that it is not an 
issue as they reach a vote.
    Senator Wicker. But, you anticipate it will be November 
before we can do that.
    General Gration. I anticipate that that is the end--that's 
when we'd like to get it done by. But, I believe that if we 
work together--this is a long boundary, and there are some 
issues, especially up around oil, that may be contentious. And 
so, we will provide whatever support we can. But, we believe 
that if it is done by November, then it is not an issue that 
will be factored into the referendum. If, for some reason, we 
can't get this thing demarcated until after the referendum, we 
believe it will be a problem, in terms of independence.
    Senator Wicker. General, Mr. Kiir--Salva Kiir--was elected 
by the people of the South, with 93 percent of the vote. He has 
stated the upcoming referendum is a choice between being second 
class in your own country or being a free person in an 
independent state. Is there any question in your mind that he 
supports secession?
    General Gration. I've talked to him, and I believe he does.
    Senator Wicker. Indeed. Now, he got 93 percent of the vote. 
How close are the boundaries of the electorate that chose him 
and the boundaries that you expect to be agreed upon before 
this referendum can take place?
    General Gration. President Kiir and I have discussed all 
the issues that have to be done. And we've--share the same 
views on the things that have to be done before they move 
forward with a referendum. And I'm not sure I understand you 
question, but----
    Senator Wicker. He was elected within a jurisdiction that 
obviously had boundaries. How different will the demarcation be 
of that area and the area that will vote in the referendum?
    General Gration. He was elected in an area that does not 
have formal boundaries. You know, we know sort of where the 
states are, but--the border between the North and the South 
that follows the 1956 is not going to be the border that exists 
today. There's areas in Darfur where the border will move. And 
there's areas around Hegleig where the border will move to 
reflect that 1/1/56 agreement. So, in other words, the state 
borders that exist today will not be the final border.
    Senator Wicker. Well--thank you--would it help your job, 
General, if the Secretary of State and Ambassador Rice stepped 
forward and took a more visible, active role in this so as to 
heighten the level of importance that our American Government 
places on this issue? Would that be beneficial to you, if they 
stepped forward and became more visible?
    General Gration. I think Secretary Rice is already working 
with--in her job as Ambassador in the U.N.--to highlight these 
issues. She's called for hearings. She's working the issue very 
hard, and we're in constant communication.
    Secretary Clinton has been superb and continues to help in 
every way she can to raise this level. She has been 
coordinating with other Foreign Ministers of the Troika. We've 
put out joint statements. And she's been extremely positive and 
helpful, and as has the President.
    Obviously, there's more things that can be done. And we're 
working with her staff and her people to elevate these issues 
as they come up. But, I have no complaints about the level of 
effort that people above me are putting into it.
    Senator Wicker. Well, Mr. Chairman, my round is over. If 
there's a moment or two, I may jump back in for a second.
    The Chairman. Yes, we're going to have to wrap it up in a 
moment. Why don't you go ahead?
    Senator Wicker. Well, OK.
    The Chairman. Well, let me ask some, because I had a couple 
questions, and then we'll come back to you.
    Senator Wicker. OK, sure. Then I'll take a second round, if 
you have a moment.
    The Chairman. But, let me follow up on what Senator Wicker 
is saying, because my own impression is, General--I know you're 
working this as hard as you can; and having been out there and 
having dealt with this a little bit, I think you've got to have 
increased leverage, over these next few months. And, 
effectively, what you're sitting here and saying is, you've got 
enough, and the Secretary and the Ambassador are doing what's 
necessary. If it doesn't come together at the current pace, 
it's on their doorstep, according to you.
    I think you ought to get a little more leverage into this 
effort, because I don't think it's going to happen at the 
current pace, unless there is additional oomph. Not your--it's 
not that you're not doing it. It's not that you're not there 
and pushing it. We just all know what the reservations are 
here. We all know what the game is.
    And I think if the spotlight isn't a little more--you know, 
most of the world doesn't have a clue that 2 million people 
were killed there. They only think about Darfur. The prospects 
of that war reopening are exactly what Dennis Blair has said. 
And I think it's imperative to get this accelerated.
    It's also my understanding--I wanted to ask your comment on 
this--that humanitarian agencies are unable to reach as many as 
half the rural population in Darfur. Is that accurate today?
    General Gration. That is accurate, because of the banditry 
and the roadblocks and things that are going on. That's very 
true.
    The Chairman. Well, that's also unacceptable at this stage 
of where we are in this process. I mean, you know, we got very 
specific promises from the government in Khartoum last year, 
and you worked on it, I worked on it. We thought we had a 
sense--``OK, humanitarian aid's going back in there and we get 
in, in full.'' Now we know that that government is even 
involved, according to your testimony today, in some of the 
attacks that have taken place. And I don't think we've 
progressed as much as many people would have hoped or would 
like to see us progress.
    So, my sense is, if it isn't going to just kind of stagger 
across a line or be a situation of, you know, kind of a least 
bad disaster or something, I think we have to try to up it. We 
have to here, too. I think this hearing is for this purpose. 
But, I think we have to try to help you to figure out whatever 
is necessary to try to avoid that. Because, there's an 
unbelievable amount to be done in a short span of time, more 
than, probably, one country and one very dedicated general and 
his team--which is a significant team--can pull off.
    I don't know how you want to respond to that, but I'll give 
you a chance to.
    General Gration. I take your point, and I certainly will 
raise those at the appropriate level.
    I would like to clarify one thing. I misunderstood your 
question. It is true that we're meeting the needs of the people 
in IDP camps. What is not true is that we're able to get out in 
the countryside, where a lot of the Arabs, nomads, are. And so, 
there's a population that is not being met. But, in many ways, 
those were not being met before the NGOs got pushed out. So, I 
apologize. I misunderstood----
    The Chairman. That's true. I agree with that. I understand 
the camp distinction from the rural areas, which I mentioned. 
But, that's precisely what I'm trying to get at. One would have 
hoped that, given the efforts in Doha, given the change in the 
government, given your presence, given our new President and 
our concern and all of the effort, that, in fact, we wouldn't 
be now hearing about government attacks and, you know, the 
other kind of violence. I think that we're looking for a level 
of continued progress that would indicate differently.
    One other thing I'd just like to ask you, very quickly--
this afternoon Senator Lieberman and I are going to be rolling 
out something called the American Power Act, which is an effort 
to try to change America's energy posture in the world and 
respond to some of the demands of climate change in various 
parts of the world.
    It's my understanding that Darfur, as well as the South of 
Sudan, are places where that climate change is, in fact, 
manifestly evident today and having an impact on the 
populations and, indeed, even on the violence. I wonder if you 
would perhaps speak to that. I'm not claiming it's responsible 
for genocide or other things--that's not what we're saying--but 
that environmental factors have, in fact, exacerbated conflict 
and is resulting in some contest over water, wells, and other 
kinds of things, which results in violence. Can you speak to 
that?
    General Gration. Yes, sir. You've just really hit the nail 
on the head, as we think about development. Out of the last 100 
years, 19 years out of the last 25 have been the worst, in 
terms of rainfall. So, what I'm trying to say is, in--that the 
last 25 years have been far less rain that's fallen on Darfur. 
The water tables have dropped 2 meters in recent years. The 
competition, not only for water, is terrible. And the 
desertification is definitely moving South.
    In addition to that, Sudan has cut down more trees than any 
other country in Africa. And Darfur is actually the worst place 
for that. In fact, there's--only Brazil and Indonesia exceed 
them in hectares; 8.8 million hectares destroyed in Sudan. And 
so, these issues, the fact that the trees have been cut down, 
the fact that we're just having less rain, is putting 
tremendous pressure on these populations. And as we think about 
the future, we've got to tackle these issues. And you're 
exactly correct. I would like to see the people, in their spare 
time--soldiers--out there planting trees and working on these 
things. We did it in Ethiopia, and we saw the water tables come 
up, as when it does rain, these grasses and trees are able to 
grab the water and hold them, instead of runoff.
    So, you hit on a problem that is near to me. I've raised it 
with Vice President Taha. I've discussed it with Mutrif, in the 
Foreign Ministry. I discussed it with the leadership of UNAMID. 
And I've discussed it throughout. I am dedicated to not only 
bringing the security, but working the long-term answers for 
Darfur, and they include acknowledging the climate change and 
fixing them.
    The Chairman. Thank you, sir.
    Senator Wicker, a couple questions, then we need to wrap it 
up, here.
    Senator Wicker. OK, yes.
    General, the laws must be changed by the National Assembly 
before the vote can take place. Well, when do you anticipate 
that action by the national legislature will take place?
    General Gration. They've actually changed the law. There's 
already a law that was put in place in December that allows the 
referendum to take place. What needs to be done is that they 
have--the National Assembly has to approve the Southern Sudan 
Referendum Commission, and then they also have to appoint the 
Abyei Referendum Commission. But, the law has been changed--I 
mean the law was put in place to allow this commission----
    Senator Wicker. But, those other two actions must take 
place in order for the process to go forward. When do you 
anticipate that that will be done?
    General Gration. We anticipate it will be done sometime 
after the 25th, probably around the 1st of June.
    Senator Wicker. First of June. OK. Well, thank you. Have 
you had discussions with Russia about coming in and taking a 
major partnership role with the United States in making sure 
this is a peaceful and amicable divorce?
    General Gration. Yes, I had a meeting 2 weeks ago with 
Mikhail Margelov, and we've--we talk, and certainly we're 
looking at seeing if--what the relationship could be of Russia 
to Sudan, because they have access that we don't have, they 
have capabilities that we don't have. And we're looking right 
now and figuring out a way that we could team together to do 
just that.
    Senator Wicker. OK. And one other thing, Mr. Chairman.
    I'm concerned about the testimony that Khartoum might be 
better disposed to all of this if somehow their government were 
less of an international pariah. Am I characterizing your words 
correctly, General Gration?
    General Gration. I think it's clear, in my discussions with 
them, that they would like to move to a position where the 
government would be more respected and more accepted by the 
international society.
    Senator Wicker. Well, I'd simply point out, Mr. Chairman, 
that the facts are what they are, and the President of Sudan is 
internationally indicted, and that can't be ignored. And when 
that happens, it does have an effect on your international 
reputation.
    I appreciate the Chair indulging me.
    Let me say in conclusion, Mr. Chairman, this has been 
helpful. It had to be abbreviated, because of the room. I would 
hope, soon, this committee or perhaps a subcommittee could 
convene another hearing on this issue.
    Chair mentioned the importance of continuing to highlight 
the significance of this issue. I would hope that that a 
representative of one of these NGOs that sees it differently 
than General Gration could be brought to testify. I would hope 
that----
    The Chairman. That's going to happen----
    Senator Wicker [continuing]. Roger Winter----
    The Chairman. [continuing]. And Senator Feingold have 
already----
    Senator Wicker [continuing]. Might be invited also.
    The Chairman. We've already approved a hearing. Senator 
Feingold will have it--at the subcommittee. And we hope to have 
other voices there.
    Senator Wicker. When will that be, Mr. Chairman?
    The Chairman. I'm not sure when it is. A few weeks. 
Somewhere soon.
    Senator Wicker. Thank you. I'm heartened to hear that.
    And I appreciate the Chair indulging me.
    The Chairman. Thank you.
    General Gration, you've got a big task. We want to try to 
be helpful. And we want to, obviously, be successful. And we 
want to avoid this looming emergency, which we are defining 
here today, and you've defined previously. We all know it's 
there. It's tricky, but we are here not to do anything except 
find ways forward and to try to be helpful with you.
    So, we thank you very, very much for the job you're doing. 
Thanks for coming in today. And we look forward to following 
up.
    We stand adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Prepared Statement of the United States Agency for International 
                      Development, Washington, DC

    For 5 years, we have discussed the roadmap of the Comprehensive 
Peace Agreement (CPA) and what we are doing to support its milestones. 
Now that discussion is changing. In 8 months, millions of Sudanese will 
decide their future as a nation. Next year, our current roadmap will 
end, and our path ahead could go in many different directions.
    What does the future hold? The United States is committed to 
supporting the Sudanese as they invest in a better tomorrow for all of 
Sudan, and we have already contributed billions of dollars in 
humanitarian, security and development assistance toward that end. In 
Darfur, the Three Areas, and southern Sudan, our assistance has saved 
lives, improved living conditions, and given people hope that the 
opportunities of coming generations will be better than the last. The 
challenges are daunting, but we have a stake in Sudan's future, and we 
plan to continue our walk alongside our Sudanese partners through the 
end of the CPA roadmap and beyond.
    Just weeks ago, the Sudanese people voted. The overall lack of an 
adequate enabling environment in Sudan largely prevented a credible 
electoral process from taking place. A national security act that 
bestows security forces with extensive powers to arbitrarily detain 
citizens without charge facilitated the detention of activists and the 
breaking up of campaign gatherings during the pre-election period. 
Political parties had limited abilities to exercise their freedom of 
assembly, and the press remained heavily censored. As a result, most 
major northern parties boycotted the elections, and the Sudan People's 
Liberation Movement withdrew its candidates from the Presidential and 
most northern races. The elections took place despite these challenges.
    The Carter Center said the process did not meet international 
standards, and observers noted widespread procedural irregularities 
that provide important lessons for all of us as Sudan moves toward the 
final phase of the CPA. We have yet to complete inaugurations and the 
final round of postponed elections--including in Southern Kordofan, 
where popular consultations are to take place--so it may be too early 
to make a final assessment. USAID will monitor what occurs once the 
National Assembly convenes, and a new government is formed. Will it 
really be a new unity government of multiple parties all working 
together? Or will it be politics as usual?
    But, in setting a context for the flawed elections last month, we 
should not lose sight of the fact that, just 6 years ago, Sudan was in 
the throes of a brutal, bloody, two-decade civil war, that southern 
Sudan is still one of the most inaccessible regions in the world, and 
that its people speak dozens of languages and have had little or no 
experience with participatory democracy. Despite the significant 
shortcomings, the elections brought about increased levels of political 
competition and civic participation in the pre-electoral period, and 
witnessed commendable efforts by the vast majority of poll workers, 
voters, domestic observers and party poll agents to make polling 
successful and largely peaceful. The Sudanese people, many for the 
first time in their lives, had a say in who represents them.
    Now we must look toward the next, most critical milestones, the 
popular consultations in Southern Kordofan and Blue Nile and the 
landmark referenda on Sudan's future status, and do what we can to 
ensure a peaceful post-2011 Sudan or an orderly transition to two 
separate and viable states at peace with each other.
                               the south
    Building capacity in the south has been the cornerstone of USAID's 
strategy in Sudan since 2004. USAID's goal is to help establish a 
transparent, just, democratic government able to deliver basic services 
to its people, whether southern Sudan chooses unity with the north or 
independence in 2011. The Government of Southern Sudan (GOSS) did not 
exist before 2005. Every government structure and system has had to be 
crafted from scratch. The committed men and women who serve in the 
government are not career politicians, nor have they benefited from the 
lessons, assumptions, and experience of a life lived in a democratic, 
transparent state. Initially, the GOSS had no offices, no pens, no 
paper, and no staff to undertake the most basic tasks needed for a 
government to function. But with our assistance, the key GOSS 
ministries have established systems for hiring people, for formulating 
budgets, and for establishing office systems. This has required 
tremendous dedication on the part of GOSS officials, who have been 
willing to roll up their sleeves and persevere through each one of 
these processes. Considerable progress has been made in establishing 
functioning institutions where there previously were none. Ministries 
are functioning, revenue is coming in, payments are being made, and a 
legal framework is being built.
    Today, USAID is working with the GOSS to intensively address 
logistical and training needs to prepare for the upcoming referenda and 
mitigate conflict. We have concentrated our support on public sector 
financial management, and we are helping establish legal and regulatory 
frameworks that will facilitate growth in the private sector.
    At the same time, USAID is continuing its development programs in 
the south to improve people's lives and provide them with an 
opportunity to make their needs understood, and working in close 
coordination with the GOSS to ensure that the gains are sustainable.

  <bullet> Southern Sudan has among the highest maternal mortality 
        rates in the world--one woman dies for every 50 live births. 
        Infant mortality is also unacceptably and shockingly high, at 1 
        death for every 10 live births. For years, USAID has worked to 
        improve these indicators, expanding urgently needed services to 
        13 counties in the south. As a result, more than 2 million 
        people in southern Sudan have improved access to high-impact 
        maternal, child health, and family planning services.
  <bullet> Less than half of people living in southern Sudan have 
        access to potable water and only 7 percent have access to 
        proper sanitation. This threatens the lives of southern 
        Sudanese--especially children--so USAID is working to improve 
        water supply and sanitation facilities in four southern states 
        and the Three Areas through borehole drilling, hand pump 
        repair, and latrine construction, as well as hygiene promotion. 
        USAID is also marketing purification tablets in 16 urban and 
        semiurban market towns to promote better household hygiene and 
        create demand for sanitation.
  <bullet> Improving access to education is vital to building Sudan's 
        long-term human capacity. USAID programs focus on primary 
        education, girls' education, teacher training, and 
        institutional development. Activities target out-of-school 
        youth, women, girls, and other vulnerable and marginalized 
        groups. They also enhance GOSS capacity to sustainably manage 
        the education system and establish more equitable gender-based 
        policies in education. As a result, Sudanese citizens have 
        greater access to improved education services and English 
        language instruction. They also have more confidence in the 
        government's ability to deliver these services. Primary school 
        enrollment has increased markedly--from 1.1 million in 2007 to 
        1.4 million in 2009.
  <bullet> To improve the south's devastated infrastructure USAID is 
        rehabilitating hundreds of kilometers of roads and building 
        electricity-generating systems across southern Sudan and the 
        Three Areas. In 2009, seven permanent bridges were completed 
        along the Juba-Nimule road, the entire road was maintained, and 
        critical repairs were completed. As a result, travel time has 
        been reduced from 6 to 3.5 hours between the two towns, and 
        daily traffic has nearly doubled. In 2010 and 2011, the road 
        will be paved, creating the south's first paved road outside 
        the state capital of Juba. This year, USAID began implementing 
        a 5-year, $55 million project designed to ramp up agricultural 
        productivity, increase trade, and improve the capacity of 
        producers, private sector, and public sector actors in southern 
        Sudan to develop commercial smallholder agriculture. A primary 
        focus is helping smallholder farmers' and producers' 
        associations to enhance production, facilitate marketing, 
        extend agricultural credit, and promote post-harvest storage 
        and processing technologies in high-production areas near 
        improved road networks in southern Sudan.

    However, make no mistake: the situation in the south remains 
volatile. Community insecurity and interethnic clashes worsened in 
2009, killing more than 2,000 people and displacing at least 250,000 
others. An alarming new aspect of the conflict is that women, children, 
and elderly are now routinely victims of the violence. There are 
several reasons for these clashes. Southern Sudan is only very slowly 
emerging from nearly a half century of violent conflict. The GOSS is 
not yet functioning at a high enough capacity to protect the people who 
live in rural and remote areas. Rule-of-law institutions including the 
police, courts, and prisons are understaffed, ill-equipped, and only 
functional in major urban centers. Poverty and lack of economic 
opportunity is widespread, and small arms are widely prevalent among 
the civilian population, especially the youth in cattle camps. Armed 
youth are well-organized and well-equipped, with some operating in 
criminal gangs that lack respect for government authorities or 
traditional leaders.
    The Lord's Resistance Army (LRA) also continues to terrorize the 
people of southern Sudan, killing over 200 people and displacing 70,000 
during the past 18 months alone. We appreciate the efforts of Senators 
Feingold, Brownback, and Inhofe to sponsor the Lord's Resistance Army 
Disarmament and Northern Uganda Recovery Act and hope that the LRA will 
soon cease to be a threat to the men, women, and children of southern 
Sudan.
    USAID continues to respond to emergency needs resulting from 
ongoing conflict and associated displacement in southern Sudan. 
Humanitarian programs include provision of primary health care, 
nutrition, agriculture and food security, water, sanitation, and 
hygiene services. They focus on mitigating tensions caused by a lack of 
resources or their inequitable distribution and ensuring the successful 
return and reintegration of more than 2.2 million people to southern 
Sudan and the Three Areas. USAID continues to prioritize delivery of 
essential basic services in areas of high population returns, while 
incorporating disaster risk reduction activities to better address 
long-term recovery challenges. Working closely with the GOSS, USAID 
humanitarian programs provide a vital link between relief and long-term 
development initiatives, while minimizing potential gaps in assistance.
    To build up the capacity of southern Sudan, USAID is also a central 
contributor to the Juba Diplomatic Expansion, mentioned by Special 
Envoy Gration in his testimony. This diplomatic expansion in the Juba 
Consulate General will include staffing and material assistance aimed 
at expanding our existing foundation of long-term U.S. presence in the 
south, no matter the outcome of the January 2011 referendum. During the 
lead up to and immediately after the referendum, USAID personnel from 
the Civilian Response Corps will likely deploy as interagency subject 
matter experts to complement ongoing efforts to strengthen Government 
of Southern Sudan capacity during this critical period.
                            the three areas
    Stability is the most essential aspect of a peaceful transition in 
the Three Areas of Abyei, Blue Nile, and Southern Kordofan. In peaceful 
times, communities on both sides of the border share natural resources, 
trade and economic interests, movement of pastoral populations, and an 
array of local cross-border political and security arrangements. During 
the civil war, southern Sudanese communities that border the north 
suffered tremendously from repeated attacks by the Sudan Armed Forces 
and by northern tribal militia groups resulting in killings, burned 
villages, stolen cattle and repeated displacement. These grievances 
have yet to be reconciled. High expectations for visible benefits of 
peace remain unmet, and tensions and instability remain high.
    However, progress is being made. Two years ago, people and local 
authorities in Kurmuk, Blue Nile, were disillusioned by the lack of 
peace dividends and tangible improvements in political integration, 
economic opportunity, and access to services promised by the CPA. At 
that time, it was quite possible that Kurmuk could return to war 
because many residents believed that they were better off before the 
peace. In 2008, USAID began a robust program that made $6 million of 
small, in-kind grants to Sudanese authorities, organizations, and 
companies for a range of activities including infrastructure (air 
strips, staff residences in isolated areas), reconciliation meetings, 
and expanded social services such as education (a large new secondary 
school), health (two training institutes), and water. We sought to 
concentrate activities in one place, implement them rapidly, support 
state and local government ownership and eventual management, and link 
to civil society to build capacity and accountability. This model 
resulted in a critical mass of visible improvements in Kurmuk that has 
changed the mentality of citizens who are now more contented with peace 
and with the performance of their local and state governments. Many of 
Kurmuk's residents now believe their government is committed to peace 
and development. They are also more confident that they and their 
government are better prepared to take on future challenges.
    Simultaneous with southern Sudan's referendum on unity in January 
2011, the people of Abyei will vote in their own referendum on whether 
they want to be part of southern or northern Sudan, regardless of the 
outcome of the south's referendum on unity. Blue Nile and Southern 
Kordofan will remain part of northern Sudan, but they will go through 
popular consultations to ascertain the will of the people on 
constitutional, political, and administrative issues. Both of these 
processes have the potential to have game-changing effects on the 
country. Abyei is a critical, resource-rich area, and its status will 
be critical to planning the future. And the popular consultations, if 
implemented well, could stand as an example of federalism and popular 
engagement that could guide Sudan in creating a new constitution when 
the interim constitution expires in 2011.
    In addition to our ongoing humanitarian and development assistance 
programs, USAID has planned a comprehensive program to support these 
political processes, including technical assistance for administering 
the referendum and implementing popular consultations, promoting and 
enabling civic participation, and conducting international observation. 
The involvement and support of Sudan's national and state governments 
are critical for international efforts to be effective.
                                 darfur
    Since 2003, the crisis in Darfur has affected an estimated 4.7 
million people, including 2.7 million people that were driven from 
their homes. The conflict in Darfur has evolved to include more local, 
intracommunal conflict and opportunistic banditry , with primarily 
economic rather than political motivations, in addition to attacks 
between armed movements and the government, and rebel-on-rebel attacks. 
USAID and the international humanitarian assistance community continue 
to provide immediate, life-saving assistance to conflict-affected 
populations as security and access permits. However, many needs remain, 
particularly in remote, rural areas outside of the camps. USAID 
provides support to conflict-affected people both within and outside 
camps through nongovernmental organizations, U.N. agencies, and U.N.-
managed cluster-based humanitarian coordination mechanisms. We 
encourage partners to actively coordinate to ensure that assistance is 
complementary, comprehensive, and consistent, and that assistance 
provided meets appropriate international standards. USAID partners 
provide emergency relief supplies and implement emergency programs in a 
variety of sectors, including health, nutrition, water, sanitation, 
hygiene, food security, agriculture, shelter and settlements, economic 
recovery, protection, and coordination.
    However, ongoing violence continues to significantly hinder 
delivery of humanitarian assistance to vulnerable people in Darfur, as 
do bureaucratic impediments imposed by the Sudanese Government. The 
increased frequency of kidnapping, carjacking, robbery, and interethnic 
violence has caused a number of international humanitarian 
organizations to either temporarily suspend their programs in Darfur or 
relocate international staff from remote field locations to urban 
centers. In addition, despite peace negotiations, the Sudanese 
Government and armed opposition groups have restricted humanitarian 
access to civilians affected by significant conflict in the Jebel Marra 
region of Darfur in early 2010.
    Following the Sudanese Government's March 2009 expulsions of 
humanitarian organizations, the agencies that remained--and to some 
extent Sudanese Government ministries--adapted to ensure delivery of 
life-saving assistance in Darfur. Although swift actions successfully 
averted a humanitarian crisis, service provision in many sectors 
remains challenged primarily by the reduced presence of the United 
Nations and nongovernmental organizations in many locations and poor 
access due to continued insecurity. We do not have the eyes and ears on 
the ground in Darfur that we used to, which hinders our ability to 
monitor our assistance.
    However, more than a year after the expulsions, we are trying to 
shift our focus from gap filling to the evaluation of program quality 
and ensuring effective need-based aid delivery within the existing 
humanitarian context. The Sudanese Government has demonstrated a 
willingness to support some humanitarian efforts through primary health 
care service delivery and safe drinking water provision. As other 
critical needs remain, additional engagement and support is necessary, 
and USAID continues to support the United Nations in advocating for 
increased Sudanese Government support in all humanitarian sectors, 
including protection.
    The expulsions resulted in a significant loss of capacity for 
humanitarian protection activities in Darfur and measurably slowed 
ongoing activities such as women's centers and livelihoods activities. 
Remaining relief organizations have continued to conduct humanitarian 
protection activities, including support for victims of sexual and 
gender-based violence and development of child-friendly spaces, and the 
U.N. Population Fund (UNFPA) has made some progress in garnering state 
and federal support for programs in sexual and gender-based violence. 
In North Darfur, the Sudanese Government Humanitarian Aid Commission 
has authorized the reestablishment of nine women's centers, and UNFPA 
has government approval to revitalize a women's center in a camp in 
West Darfur, including a training curriculum on sexual and gender-based 
violence.
    USAID continues to seek opportunities to expand humanitarian 
protection activities and encourages partners to mainstream these 
activities within their ongoing and proposed programs. Some examples of 
protection mainstreaming include distributing food aid to women and 
monitoring vulnerable children after distribution; ensuring that 
latrines are well-lit, lockable, and separated by gender; and providing 
training for livelihoods that do not require women to walk significant 
distances from the safety of their communities.
    While continuing to provide crucial emergency assistance, USAID has 
also begun to look toward opportunities for early recovery in Darfur. 
In areas of relative security, windows of opportunity exist to build on 
our current programming with activities that are more developmental in 
nature. Our early-recovery initiative will start several quick-
implementation projects that aim to rapidly deliver benefits for 
selected communities, while building experience among local partners 
that will allow USAID to more easily scale up into a larger development 
program when peace and security return and the situation stabilizes.
                             contingencies
    With all of these uncertainties, USAID has placed a high priority 
on planning for contingencies and improving our ability to respond to 
them. Around the world, our emergency programs are designed to be 
flexible, need-based, and ready to respond rapidly to issues as they 
emerge. International Disaster Assistance funds are, by their very 
nature, flexible, allowing us to reallocate resources to respond to 
situations. After the March 2009 expulsions, for example, it was this 
flexibility that made it possible for us to rapidly shift funds to 
expand programs among our remaining partners.
    We are also supporting an enabling environment for community 
security in southern Sudan. These efforts aim to address some of the 
root causes of conflict and put in place rapid, demand-driven responses 
to bolster understaffed and underequipped state and local government 
officials through the provision of equipment, training, and visible 
infrastructure projects. In Jonglei, a USAID-provided riverboat now 
allows a county commissioner to quickly visit villages that have become 
flashpoints for violence and work to resolve conflict before it erupts.
    But perhaps most vital to our ability to respond to situations as 
they emerge is our long-term presence throughout Sudan's most volatile 
areas. Two years ago, Abyei erupted in violence that devastated the 
town and displaced more than 25,000 people. The Abyei area has long 
been a priority for USAID, and our ongoing presence there allowed USAID 
and its partners to rapidly assess the situation and provide essential 
emergency assistance to those most in need. With USAID funding, a group 
of USAID partners was able to mobilize and coordinate a response to 
mitigate the impact of the emergency because they were already on the 
ground, and because they had already spent years building trust among 
the local community.
    Nobody knows for certain what the future holds for Sudan. In 2000, 
could anyone have predicted the extraordinary signing of the CPA and 
the relatively sustained peace that has followed? Could we have 
foreseen the sheer devastation that would visit Darfur and its people? 
Could we have anticipated an orderly census and elections and the 
opportunity for self-determination among a people who had only known 
war?
    Twenty years of civil war not only destroyed farms, roads, and 
buildings, but also families, communities, and hope. Today, we continue 
our efforts to restore hope for the people of Sudan by giving them our 
commitment to work together to build a new future, full of promise and 
opportunity, and to walk with them to the end of the roadmap and 
beyond.
    Thank you, Mr. Chairman and members of the committee, for giving 
USAID the opportunity to submit this testimony for the record. We 
appreciate your attention to Sudan and your ongoing support to our work 
in Africa.
                                 ______
                                 

 Responses of Special Envoy to Sudan J. Scott Gration to Questions by 
                        Senator Richard G. Lugar

    Question. The Comprehensive Peace Agreement was concluded in 
January 2005 with the help of a large group of international actors, 
including Sudan's neighbors, Norway, the U.K., the United States, as 
well as the United Nations.

  <bullet> What has been the role of the broader international 
        community as the CPA has been implemented?
  <bullet> How significant a role does the United States play today, 
        and what will be that role in the future?

    Answer. The broader international community has been involved since 
the signing of the Comprehensive Peace Agreement (CPA) largely through 
their participation in the CPA-mandated Assessment and Evaluation 
Commission (AEC). The AEC, staffed with international experts and led 
by a senior British diplomat, provides a venue for the international 
community to speak with one voice in monitoring and encouraging CPA 
implementation. Other coalitions, including the U.S.-U.K.-Norway 
Troika, the wider Sudan Contact Group, and the Envoy-6--which includes 
the envoys from the five permanent members of the U.N. Security Council 
and a representative from the European Union, provide useful fora for 
multilateral diplomatic engagement on Sudan. Sudan's neighbors, 
particularly Egypt, Ethiopia, Uganda, and Kenya, have undertaken 
periodic high-level diplomatic engagement, especially in the last year, 
to push both parties to renew their commitment to implementing the 
CPA's provisions.
    International community engagement has also focused on critical 
areas of humanitarian, development and peacekeeping assistance, 
particularly in Southern Sudan, have sought to promote economic and 
social development and build the capacity of the Government of Southern 
Sudan to undertake accountable and transparent governance and begin to 
provide basic services to citizens. During the CPA Interim Period, the 
largest financial contributors in Sudan after the United States have 
been the United Kingdom, Japan, Canada, Norway, the Netherlands, and 
the European Commission; these and other international donors have also 
been active contributors to UNDP and the World Bank-managed Multi Donor 
Trust Funds. The Trust Funds, however, proved slow and cumbersome in 
disbursing donor funds; to date 62 percent of funds have been 
disbursed.
    The United Nations Special Representative of the Secretary General 
for Sudan (SRSG) has deployed UNMIS peacekeeping forces, and civil and 
political affairs elements focusing on crucial CPA-related processes, 
such as the national elections in April and the upcoming referenda on 
the future status of Southern Sudan and Abyei. The African Union is 
playing an increasingly active role, primarily through President Mbeki 
and the African Union High Level Implementation Panel on Sudan (AUHIP), 
on CPA-related issues, in particular referenda preparations and the 
negotiation of post-CPA arrangements. The United States is currently 
undertaking intensive discussions with the U.N. and AU regarding 
international collaboration on support for remaining CPA issues, 
referenda preparations, and technical and political assistance to post-
referendum negotiations.
    The United States played a crucial role in encouraging the 
Government of Sudan and the Sudan People's Liberation Movement/Army to 
negotiate and sign the 2005 Comprehensive Peace Agreement (CPA). Since 
the CPA's signing the United States has been the international leader 
in diplomatic engagement and bilateral assistance to Sudan, having 
provided more than $6 billion in assistance since 2005. The United 
States is also a major supporter of the two U.N. peacekeeping missions 
in Sudan: UNMIS and the UN/AU mission in Darfur. In June 2009, the U.S. 
Special Envoy to Sudan organized a Forum for Supporters of the CPA in 
Washington, DC, to reenergize international attention on the CPA. 
Through the summer and fall of 2009, the U.S. Government facilitated 
direct talks between the CPA parties to agree to resolve 12 outstanding 
CPA issues.
    The United States will play a leading role in encouraging the 
parties to carry out peaceful and credible referenda processes, and for 
the parties and international community to respect the results. In 
addition, the U.S. Government will continue to provide development 
assistance to support the implementation of the referenda, as well as 
popular consultations in Blue Nile and Southern Kordofan states. 
Whether Southern Sudan chooses unity or secession, the United States 
will be a key partner in ensuring that the Government of Southern Sudan 
has the capacity to govern in a transparent and accountable manner, and 
to provide basic services to its people. The United States will also 
continue to closely monitor the political, humanitarian, and human 
rights situations in Northern Sudan, including Darfur and other 
marginalized areas such as Eastern Sudan, and will look for 
opportunities to achieve U.S. goals and objectives in the North no 
matter what the outcome of the referenda.

    Question. The Comprehensive Peace Agreement is a complicated series 
of agreements concluding in a referendum on unity in the south of 
Sudan. While many important elements, such as borders and wealth 
sharing remain to be agreed, the referendum on unity may well be the 
decisive element between war and peace.

  <bullet> What considerations would compel the North and the South to 
        avoid conflict at this moment? How is the international 
        community reinforcing these? Does the CPA or do ongoing 
        negotiations allow for the option of extending a period of 
        transition to ensure South Sudan does not become a failed state 
        upon its creation?
  <bullet> What is the prospect that the referendum will not be agreed 
        to be held by the Government in Khartoum or that the minimum 
        parameters for the poll will not be achieved to make it valid? 
        What would this mean in terms of the CPA and in terms of those 
        international partner countries that have been party to the 
        agreement?
  <bullet> United Nations

      <all>  What role does the United Nations play in the CPA 
            implementation and what role after July 2011?
      <all>  What mandate does UNMIS have with regard to CPA 
            implementation? What role does UNMIS have as of July 2011?
      <all>  What initiatives has USUN undertaken with regard to Sudan 
            over the last 18 months?

    Answer. Most Sudan analysts agree that both parties to the 
Comprehensive Peace Agreement (CPA) benefit politically and 
economically from peace, and that neither benefit from a return to 
civil war. Despite this, the events of the next 12 months are likely to 
place significant strain on the relationship between the parties as 
well as their individual relationships with key domestic 
constituencies, which could push them toward increased confrontation. 
Key near-term sources of potential conflict include the runup to and 
conduct of the referenda in both Southern Sudan and Abyei, Northern 
rejection of referenda results, failure to reach an adequate 
understanding of post-referenda arrangements between North and South, 
and the inability of the Government of Southern Sudan (GOSS) to govern 
effectively and maintain adequate control over the security situation 
in the South.
    Continuation of the partnership and high-level productive dialogue 
between the CPA parties over the next 12 months will be crucial to 
prevent conflict from reemerging. This includes indications of progress 
on key post-CPA issues such as continued oil revenue-sharing, 
citizenship rights, and division of debts and assets, which may provide 
an incentive for the North to accept Southern independence. The 
international community, including the African Union High-Level 
Implementation Panel on Sudan, the United Nations, and key actors such 
as the United States, Norway, and the United Kingdom, continue to play 
an active role in bringing the parties together to resolve these and 
other key issues. In addition, the United States must continue to focus 
attention on conflict mitigation and prevention in Southern Sudan and 
the Three Areas, including by continuing efforts to build the 
governance capacity of the GOSS, professionalizing the Sudan People's 
Liberation Army and Southern Sudan Police Service, and focusing on 
conflict mitigation and peace building activities at the state and 
local levels in flashpoint areas.
    The CPA prescribes a 6-month period after the referenda before the 
close of the CPA's Interim Period and implementation of the referenda 
results. Any amendment to this arrangement or extension of the Interim 
Period must be agreed upon by both parties, which we view as unlikely.
    Credible, peaceful, on time referenda for Southern Sudan and Abyei 
are milestones of the Comprehensive Peace Agreement and are high 
priorities for the United States and other international actors in 
Sudan. The Southern Sudan referendum is likely to face significant 
challenges, not least due to the nearly 2-year delay in the 
establishment of the Southern Sudan Referendum Commission and Southern 
Sudan's vast size and limited infrastructure. While many important 
lessons were learned in the April 2010 elections, little time remains 
for referenda preparations. With just 6 months remaining, significant 
efforts will be needed to conduct credible referenda on time.
    Although the ultimate responsibility for the organization and 
management of the referenda (and the creation of an acceptable 
political and security environment) falls to the Government of Sudan 
and the Government of Southern Sudan, international support for the 
referenda must be robust, in an effort to maximize the credibility of 
the result. Support includes U.S. Government technical support on 
referenda administration, civic and voter education, and international 
observation, implemented in coordination with logistical and technical 
assistance by the United Nations Mission in Sudan (see answer below), 
and an international donor Basket Fund managed by the U.N. Development 
Program.
    Given the enormity of the decision and the potential consequences 
of the Southern Sudan referendum-- namely, the emergence of a new, 
independent state in Africa--it is critical that the entire referendum 
process be deemed credible to ensure that the results are accepted by 
domestic and international stakeholders. This will also likely 
facilitate international recognition of an independent Southern Sudan, 
should that be the outcome of a credible referendum process, and help 
dampen Northern reluctance to accept referenda results. This includes 
achieving the required 60-percent turnout of registered voters 
necessary to consider the referendum legal, agreed to by both CPA 
parties and embedded in the 2009 Southern Sudan Referendum Act. If this 
threshold is not met, the referendum will need to be rerun within 60 
days of the declaration of the final results of the first vote. Robust 
voter education, careful planning around polling locations in both 
Northern and Southern Sudan, and due attention to security 
considerations will be required to ensure that all eligible voters who 
wish to register are able to do so, and that all registered voters are 
able to cast their ballots.
    Aside from the United Nations Mission in Sudan (UNMIS), the U.N.'s 
multidimensional peace support operation focused on supporting 
implementation of the CPA, the U.N. facilitates high-level meetings on 
Sudan and CPA issues, such as the June 2010 briefing on Sudan at the 
U.N. Security Council by officials from the U.N. and the African Union, 
including former South African President Thabo Mbeki. Throughout the 
CPA's Interim Period, the U.N. has been mindful of the agreement's 
cease-fire and security arrangements and wealth- and power-sharing 
frameworks. After the end of the Interim Period in July 2011, the U.N. 
plans to continue providing support to Sudanese peace and development 
processes primarily through the activities of its agencies (such as the 
World Food Programme, U.N. Development Program, etc.), funds, and 
programs.
    The original UNMIS mandate was set forth in U.N. Security Council 
Resolution (UNSCR) 1590 in 2005 and tasked UNMIS with supporting CPA 
implementation by performing several major tasks, including: monitoring 
and verifying the implementation of the Ceasefire Agreement and 
investigating violations; assisting in the establishment of 
disarmament, demobilization, and reintegration programs; developing a 
police training and evaluation program, and otherwise assisting in the 
training of police; assisting the parties to the CPA in promoting the 
rule of law, including an independent judiciary, and the protection and 
promotion of human rights; and providing technical assistance to the 
CPA parties, in cooperation with other international actors, to support 
preparations for and conduct of elections and referenda.
    The UNMIS mandate has been renewed and clarified at times to refine 
UNMIS' responsibilities. UNSCR 1812 of April 30, 2008, tasked UNMIS 
with providing technical and logistical support to help with border 
demarcation and to begin preparations to support national elections. 
UNSCR 1870 of April 30, 2009, added language regarding support for the 
referenda. This language regarding referenda support continues in the 
most recent renewal with UNSCR 1919 of April 29, 2010, which directs 
UNMIS to prepare to play a lead role in international efforts to assist 
with referenda preparations. The resolution also emphasized that UNMIS 
should continue assistance to the parties to implement all elements of 
the CPA, including creation of the referenda commissions and popular 
consultation bodies, along with implementation of the Permanent Court 
of Arbitration's decision regarding Abyei. In light of increasing 
violence in Southern Sudan, the renewal also called for UNMIS to 
implement a civilian protection strategy in areas at high risk for 
conflict.
    The United States led the negotiations regarding the renewal of 
UNMIS' mandate resulting in the adoption of U.N. Security Council 
resolution 1919 on April 29, 2010, which renewed the mandate until 
April 30, 2011. UNMIS, per the U.N. Secretary General's July 2010 
Report, has initiated a strategic planning process focusing on the role 
of the U.N., both in the remainder of the interim period and beyond, as 
called for in UNSC resolution 1919 (2010). We hope that the U.N. will 
continue to engage robustly in efforts relating to peace, security, 
protection of civilians, assistance, human rights, and other needs. If 
the U.N. establishes another presence on or after April 30, 2011, the 
Security Council must fashion a mandate, in consultation with the 
Sudanese, which is responsive to the security, assistance, and other 
needs in Southern Sudan at that time. Given that the CPA will end 6 
months following the January 2011 referenda, any successor U.N. mission 
would not have CPA-related functions.
    The U.S. Mission to the U.N. (USUN) liaises with other delegations 
and international organizations on Sudan-related issues in New York, 
and engages with Security Council members on Sudan during the quarterly 
U.N. briefings on UNMIS and the UN/AU Mission in Darfur (UNAMID). With 
regard to UNMIS, USUN works closely with other Security Council members 
and the Department of Peacekeeping Operations to ensure adequate 
planning for the referenda to take place. USUN has also encouraged the 
U.N. to begin working with the parties on its post-referenda presence 
in Sudan. USUN also informs the Council of our bilateral position on 
Sudan during briefings on Sudan by International Criminal Court (ICC) 
Prosecutor Luis Moreno-Ocampo and briefings by the head of the African 
Union High-Level Panel on Darfur, former South African President Thabo 
Mbeki.

    Question. The Director of National Intelligence has indicated that 
Sudan is currently at greatest risk of extreme violence and mass 
atrocities.

  <bullet> How has this affected the administration's efforts to 
        contribute resources and diplomatic effort to this region since 
        that DNI determination that you confirmed at the hearing?

      <all>  Please provide a list of costs to the United States of its 
            commitment to Sudan since 2001, to include the costs 
            associated with Darfur and our contributions to the United 
            Nations, on an annual basis.
      <all>  Please provide an overall percentage of U.S. assistance 
            vice other donors to Sudan since 2001.
      <all>  Characterize and estimate as much as is possible the costs 
            of an outbreak of war in Sudan in human and financial 
            costs.

  <bullet> While the Special Representative for Afghanistan and 
        Pakistan has cobbled together a large staff of over 40 people 
        in Washington alone, how has the office of the Special Envoy 
        for Sudan fared in its requests for support? Please be specific 
        as it relates to resources, personnel, hiring methods and 
        length of term.
  <bullet> What other agencies and USG individuals are working 
        alongside the special envoy's efforts to improve the outcome in 
        Sudan to achieve U.S. goals? Please be specific in identifying 
        and enumerating the details.
  <bullet> What if any planning is there to deal with the consequences 
        of the Sudan referendum on unity for the south?

      <all>  What is/will be the policy of the United States if the 
            referendum asserts independence for the South, or 
            independence is determined by unilateral declaration by the 
            Government of South Sudan?
      <all>  What role does the United States expect to take and with 
            what means and what partners if the referendum determines 
            an outcome or conflict ensues?

    Answer. The United States remains committed to preventing violence 
in Sudan. In an effort to build the capacity of Southern Sudan, the 
U.S. Government has undertaken a ``Diplomatic Expansion'' to include 
staffing and material assistance on the ground in Sudan to support U.S. 
Government's foreign policy objectives. Operating under Chief of 
Mission authority, staffs from the Department of State's office of the 
Coordinator for Reconstruction and Stabilization (S/CRS) and the 
Civilian Response Corps (CRC) are and will continue to provide support 
to Embassy Khartoum and Consulate General Juba as well as complement 
USAID's robust presence in the runup to and following Southern Sudan's 
January 2011 referendum.
    U.S. assistance appropriated from FY 2001 to FY 2010 and allocated 
to Sudan by State and USAID totals approximately $10.7 billion to date. 
This includes the costs of humanitarian food and nonfood assistance, 
security, peacekeeping, reconstruction and development assistance for 
all of Sudan as well as Darfur related assistance in Eastern Chad. An 
estimated $5.6 billion of this assistance was related to Darfur/Eastern 
Chad and approximately $3.27 billion of this total was CIPA funding for 
support to UNAMID and UNMIS.
    For all donors, the U.S. Government assistance accounted for 
approximately 35-36 percent of total Overseas Development Assistance 
(ODA) to Sudan for the 2001-08 period. Information is not yet available 
for the period since 2008.
    One major focus of the U.S. Government's strategy in Sudan, along 
with the correct implementation of the CPA and bringing peace and 
justice to Darfur, is to avoid an outbreak in hostilities because the 
possible human and financial costs of an outbreak of war in Sudan are 
incalculable. A full outbreak of violence could destabilize the 
country, potentially mirroring the Second Civil War that began in 1983 
and resulted in an estimated 2 million civilian deaths and displacement 
of 4 million persons. We would expect large-scale conflict along the 
border, irregular low-level insurgency, increased military buildup in 
neighboring states, increased arms trade, increased draw in regional 
terrorist elements, and increased human insecurity including refugee 
flows and internally displaced persons. An increase in violence could 
also undermine Sudan's oil production and shipment capabilities, 
cutting the internal revenues to both the North and the South.
    Over the past year, the Special Envoy's Office (S/USSES) has 
increased its staff significantly through fellows and details from DOD, 
CIA, and USAID. The Office of the Coordinator for Reconstruction and 
Stabilization (S/CRS) detailed four planners to S/USSES to consolidate 
interagency conflict prevention and stabilization plans that link U.S. 
Government strategy and policy to implementation plans and resource 
requirements. Through the Diplomacy 3.0 initiative, the Office of the 
U.S. Special Envoy to Sudan will gain three additional professional 
staff to help prepare for the referendum.
    The Special Envoy works in close concert with the following 
agencies and offices:

  <bullet> Department of State:, S/CRS, AF, INL, IO, F, PRM, S/WCI, S/
        CT, S/GWI, EEB, CA, PD, PA, DRL, L, INR, ISN, DS, S/P
  <bullet> U.S. Agency for International Development:
  <bullet> U.S. Mission to the United Nations
  <bullet> Department of Defense: OSD/Africa, OSD/StabOps, JCS/J5, 
        AFRICOM
  <bullet> Office of the Director of National Intelligence
  <bullet> Department of Commerce
  <bullet> Department of Treasury

    The 2005 Comprehensive Peace Agreement (CPA) provides for the 
people of Southern Sudan to choose unity with the North or secession in 
an internationally monitored referendum in January 2011, and residents 
of Abyei a simultaneous referendum that will allow voters to choose 
whether Abyei retains its administrative status in the north, or joins 
Southern Sudan, irrespective of the results of the southern referendum.
    The U.S. Government is working with the CPA parties in Sudan to 
prepare for orderly, credible, and peaceful referenda in January 2011. 
The U.S. Government supports referenda that reflect the will of the 
people and will respect whatever decision is made in a credible 
referendum process.
    The U.S. Government will continue to work with the international 
community to stabilize Sudan and, depending on the outcome of the 
referendum, support an orderly transition to two separate and viable 
states or the continuation of Sudan as a single state.
                                 ______
                                 

   Responses of Special Envoy to Sudan J. Scott Gration to Questions 
                   Submitted By Senator Barbara Boxer

    Question. As you know, in March 2009 the Sudanese Government 
expelled many of the largest aid organizations working in Darfur. 
During the hearing, you acknowledged that despite international efforts 
to rebuild humanitarian aid capacity since, specialized programming--
particularly projects addressing violence against women and girls--
remains dramatically reduced. What steps are you taking to ensure that 
the African Union--United Nations Hybrid Operation in Darfur (UNAMID) 
and humanitarian organizations are granted access to regions and camps 
in Darfur to work to restore this capacity--particularly medical care 
and counseling for victims of gender-based violence?

    Answer. Sexual and gender-based violence (SGBV) has been endemic in 
Darfur since the conflict began in 2003. The situation for women and 
girls in Darfur further deteriorated after the March 2009 expulsion of 
13 international NGOs and closure of three national NGOs. The 
Government of Sudan (GOS) also continues to restrict the movement of 
personnel from the U.N./AU (UN/AM) Mission in Darfur (UNAMID) movement. 
The United States Government facilitated the return of several NGOs to 
Sudan, but security conditions on the ground and restrictions imposed 
by the GOS continue to impede SGBV programming. As a result, USAID's 
Office of Foreign Disaster Assistance encourages its partners in Darfur 
to incorporate SGBV protection in all sectors in order to maintain 
coverage, where possible, for survivors of SGBV.
    The United States continues to press the Government of Sudan (GOS) 
and the armed movements to allow UNAMID and humanitarian organizations 
uninhibited access to vulnerable populations and victims in need, 
especially in areas of conflict. USAID provides leadership, technical 
expertise, and official donor representation in the Darfur Humanitarian 
Country Team (HCT), which includes representatives from UNAMID and the 
U.N. mission in Sudan. The HCT meets frequently and provides a venue to 
discuss coordinated efforts to improve humanitarian access in Darfur. 
USAID also remains an active participant in the High Level Committee 
(HLC) for Darfur. The Sudanese Government and the U.N. cochair HLC 
meetings, which provide an opportunity for principals to discuss 
security and humanitarian access issues.
    Despite these efforts, the ongoing conflict, insecurity, and 
targeted attacks against humanitarian assets and relief workers 
continue to significantly reduce humanitarian access and hinder the 
delivery of humanitarian assistance, which include assistance to 
survivors of SGBV, to affected populations in Darfur. In recent months, 
a number of international humanitarian organizations have either 
relocated international staff from remote field locations to urban 
centers or temporarily suspended programs in Darfur due to increased 
frequency of kidnapping, carjacking, robbery, and interethnic violence. 
To improve the broader security and humanitarian environment in Darfur, 
the United States is working with UNAMID and other stakeholders on the 
ground to design and implement a Darfur security and stabilization 
plan. At every opportunity, the United States emphasizes that UNAMID 
must have unrestricted movement and access to ensure the delivery of 
needed humanitarian assistance--assistance that includes support to 
victims of SGBV. UNAMID is developing a comprehensive strategy on SGBV 
prevention and response in consultation with other U.N. agencies in 
Sudan and Darfur as part of its efforts to improve the protection of 
women and girls in conflict. UNAMID has also intensified training on 
gender mainstreaming for UNAMID police and military units in an attempt 
to equip them to deal with SGBV cases and gender issues in communities.

    Question. I understand that your office is currently preparing a 
Darfur stabilization plan that will include a strategic framework for 
addressing gender-based violence. When can we expect to receive the 
details of this plan?

    Answer. The Office of the United States Envoy to Sudan, working 
with the African Union/United Nations Hybrid Operation in Darfur 
(UNAMID), the African Union (AU) and others, is developing a concept 
paper on the Darfur Security and Stabilization Initiative. The aim of 
the initiative is to encourage a Darfur-based dialogue among the 
stakeholders to minimize military operations, identify priority 
intervention areas that enhance security and stabilize communities, and 
provide an environment conducive for peace talks. One of the priority 
areas of intervention is law and order, within which stakeholders can 
address the issue of sexual- and gender-based violence (SGBV). The 
discussions on the process and the plan are ongoing with various 
stakeholders, but we hope to share the framework details as soon as 
possible.

    Question. As you know, the United States is the leading 
international donor to Sudan and in order to realize treatment and 
support for women and girls in Darfur, the United States must take the 
lead. How is the United States working to prioritize funding for 
programs to prevent, combat, and treat gender-based violence in Darfur?

    Answer. Since FY 2005, the USG has committed almost $3 billion in 
food and nonfood humanitarian assistance to people affected by the 
crisis in Darfur and Eastern Chad. This has included funding for 
humanitarian protection programming, including support for victims of 
SGBV and SGBV prevention activities.
    Security conditions on the ground continue to impede sexual- and 
gender-based violence (SGBV) programming. As a result, USAID's Office 
of Foreign Disaster Assistance encourages its partners in Darfur to 
incorporate SGBV protection in all sectors in order to maintain 
coverage, where possible, for victims of SGBV. Incorporation of SGBV 
protection in all sectors strengthens protection for all conflict-
affected people and helps provide humanitarian protection services when 
more focused approaches are not possible. Examples of protection 
mainstreaming include: improving food aid through distribution to 
women; ensuring that latrines are well-lit, lockable, and separated by 
gender; and providing training for livelihood skills and activities 
that do not require women to walk significant distances from the safety 
of their communities.
    Despite the lack of Sudanese Government support, the U.N. and other 
humanitarian agencies continue to implement SGBV programming in Darfur 
where security permits. In addition, USAID implementing partners work 
to combat and prevent incidents of violence through women's 
empowerment, skills building, and income-generation programs 
implemented as a part of broader livelihoods programming. USAID 
partners in Darfur implement a variety of livelihood training and 
support programs for women both within and outside internally displaced 
persons (IDP) camps. USAID-supported agriculture and food security 
programs empower women and enhance livelihood opportunities by 
targeting women, widows, and female-headed households in agricultural 
extension and livestock rearing training as well as seed distributions.

    Question. How can the United States press the United Nations to 
prioritize efforts to address violence against women in Darfur, 
including through a sustained, consistent, and sufficient funding 
commitment?

    Answer. The United States continues to advocate for, support, and 
coordinate with U.N. agencies on SGBV programs through diplomatic and 
assistance efforts. During the renewal process of the African Union--
United Nations Hybrid Operation in Darfur's (UNAMID) mandate, the 
United States highlighted the need for continuation and prioritization 
of SGBV efforts. Supporting the efforts of U.N. experts and bodies to 
monitor and report on SGBV, including in UNAMID, the U.N. Security 
Council Sudan Sanctions Committee's Panel of Experts, the Human Rights 
Council's Independent Expert on the Situation of Human Rights, and the 
Special Representative of the Secretary General on Sexual Violence in 
Conflict, is also of critical importance.
    To improve coverage and coordination of SGBV efforts in Darfur, the 
Department of State recently allotted $1.86 million in Economic Support 
Funds for a SGBV prevention and response program in Darfur, to be 
managed by the U.N. Population Fund (UNFPA). USAID has also provided 
$500,000 to UNFPA to facilitate technical coordination between 
humanitarian organizations working on SGBV prevention. UNFPA has been 
designated as the lead in Darfur to coordinate the U.N. and NGOs on the 
prevention of and response to SGBV. As of October 2009, the North 
Darfur Humanitarian Aid Commission had authorized the reestablishment 
of nine women's centers and UNFPA had Sudanese Government approval to 
revitalize a women's center in an IDP camp in West Darfur that included 
SGBV training.
    USAID continues to coordinate with U.N. agencies that work with the 
Sudanese Government to protect the legal rights of SGBV victims and 
gain support for SGBV activities throughout Darfur. Through both the 
Humanitarian Country Team and other channels, the U.S. Government 
coordinates with U.N. agencies on SGBV, working with the Sudanese 
Government to expand health, psychosocial, legal aid, and livelihoods 
support to vulnerable women and families in IDP camps and host 
communities, particularly the rural areas of Darfur.
    The United States continues to work with the U.N. to advocate for 
better access for humanitarian organization. During the past year, the 
U.N. has advocated more heavily for formal Sudanese Government 
acceptance of the Office of the U.N. High Commissioner for Refugees 
(UNHCR), the U.N. agency mandated under the global humanitarian cluster 
system to lead humanitarian protection activities. To date, the 
Sudanese Government continues to prohibit UNHCR from leading 
humanitarian protection activities in North and South Darfur, asserting 
that UNHCR lacks a mandate to work with IDPs and that the organization 
is seeking to assume the government's role in protecting its people.
                                 ______
                                 

    Response of Special Envoy to Sudan J. Scott Gration to Question 
                  Submitted by Senator Roger F. Wicker

    Question. In order to prepare for a referendum in January 2011 and 
the possible separation of Southern Sudan, a number of things need to 
take place in a very short amount of time. Below is a list of issues 
that you have indicated need to be resolved and/or steps that need to 
be taken. Please identify what you are doing to help the Sudanese 
accomplish each of these tasks and the date by which each issue will be 
resolved.
          1. Demarcate the North-South Border and Abyei
          2. Finalize the Southern Sudan Referendum Commission and the 
        Abyei Referendum Commission
          3. Register voters and develop voting procedures in the South 
        and Abyei
          4. Hold popular consultations in Southern Kordofan and Blue 
        Nile State
          5. Decide citizenship questions, including for the 2 million 
        Southerners who fled to Khartoum during the war and are 
        unlikely to return to the South
          6. Resolve the issue of assets and debts
          7. Resolve water rights
          8. Reach a revenue-sharing agreement
          9. Accommodate pastoralists that move from the North to the 
        South

    Answer. CPA Issues. While attention is given to referenda 
preparations and post-Comprehensive Peace Agreement (CPA) negotiations, 
the CPA parties (Government of Sudan and Sudan People's Liberation 
Movement) need to ensure that remaining CPA issues are implemented. 
Many of these issues were discussed during U.S. Government-led 
trilateral talks with the CPA parties that led to agreement on 12 
issues in August 2009. North/South border demarcation is central among 
them, and while some experts believe that field demarcation should 
happen prior to the referenda, others indicate that map delimitation is 
sufficient for North/South voters to know which side of the border they 
inhabit. The CPA parties have agreed on more than 80 percent of the 
North/South border line, while the remaining disputed areas must be 
agreed to by the Government of National Unity Presidency through a 
mechanism yet to be defined. Special Envoy to Sudan Scott Gration and 
Embassy Khartoum officials have consistently raised the need for 
demarcation with senior officials and have offered U.S. technical 
assistance with demarcation and the creation of a mechanism to resolve 
disputed border areas. However, the parties have not formally requested 
this assistance. Regarding Abyei boundary demarcation, the CPA parties 
have agreed to the boundaries as set by the July 2009 Permanent Court 
of Arbitration ruling. However, boundary demarcation in the field has 
stalled due to boundary demarcation committee fears over security in 
the Abyei region. As mandated by the CPA, popular consultations in 
Southern Kordofan and Blue Nile States should be held prior to the end 
of the Interim Period in July 2011. Planning is underway in Blue Nile; 
however delayed state elections need to happen before Southern Kordofan 
can hold consultations. Through USAID's implementing partners, the U.S. 
Government gives assistance to organizations that provide technical 
assistance and expertise in the form of training, consultations and 
study tours for individuals from the two states involved in preparing 
for and conducting the consultations. Given the civic engagement 
necessary to ensure adequate popular participation in these political 
processes, civic education is also a heavy component of these 
activities.
    Referenda Issues. The holding of credible referenda in Sothern 
Sudan and Abyei in January 2011, in accordance with the CPA's 
timeframe, is central to U.S. priorities in Sudan. As a cornerstone of 
the CPA, an internationally witnessed agreement, the outcomes of 
credible referenda should be respected by the Sudanese and the 
international community. Conducting credible referenda is contingent on 
the timely development of operational plans, to include registration 
procedures and polling plans, by the Southern Sudan and Abyei 
Referendum Commissions. The Southern Sudan Referendum Commission was 
sworn in on July 6, 2010, almost 2 years behind the schedule laid out 
in the CPA. However, the parties have yet to agree on nominees for the 
Abyei commission. Through USAID, the U.S. Government will provide 
technical expertise to the referenda commissions on procedures, 
planning, and logistics, similar to assistance provided to the National 
Elections Commission. This support will include capacity-building, 
logistics, equipment and supplies, and provision of referendum 
commodities. The U.S. Government and its implementing partners are 
closely coordinating with U.N. Mission in Sudan (UNMIIS) and U.N. 
Development Program (UNDP) officials tasked with providing significant 
logistical and technical support to the referenda. In addition, USAID 
supports voter education and domestic and international observation of 
the referenda.
    Post-CPA Issues. The negotiation of sustainable post-CPA 
arrangements is critical to North/South stability in the period 
following the referenda, especially in the event of southern secession. 
Such arrangements, if properly negotiated, could help facilitate long-
term positive relations between both entities. In late June, the 
parties signed a Memorandum of Understanding setting out a framework 
for formal negotiations that was finalized in early July, and talks 
officially opened in Khartoum on July 10 under the facilitation of 
former South African President Thabo Mbeki's African Union High-Level 
Implementation Panel on Sudan. The talks are supported by the 
Intergovernmental Authority on Development (IGAD) and the IGAD Partners 
Forum, which includes the United States. The U.S. Government will work 
closely with international actors to ensure sufficient coordination and 
support to negotiations and to provide political engagement if 
requested by the parties. Additionally, technical assistance is being 
offered to the Southern Sudan Referendum Task Force through possible 
USAID-funded secondments and existing expert advisors who are embedded 
in relevant Government of Southern Sudan ministries.
    Among post-CPA issues identified in the 2009 Southern Sudan 
Referendum Act, several are crucial to determining the post-CPA 
relationship between North and South. The citizenship status of 
southerners in the north and northerners in the south should be decided 
prior to polling so that voters' anxiety regarding their status is 
assuaged. The U.S. Government continues to urge the parties to reach a 
fair agreement that respects the rights of all Sudanese. The status of 
Sudan's substantial debts and national assets, both key areas of 
concern for the Government of Sudan, will require extensive 
consultations with International Financial Institutions (IFIs) and 
other governments, and will probably not be finalized until shortly 
before formal independence, if southerners so vote. The U.S. 
Government, through technical experts, may provide assistance to 
technical discussions on such financial issues, along with banking and 
currency issues. Water rights, which include access to transboundary 
aquifers and the possible division of Sudan's current Nile water quota, 
also remain unresolved, though some analysts indicate that this can be 
arranged at a later date.
    The status of the oil sector and the sharing of the substantial 
revenue derived from it is the most significant post-referendum issue, 
and should be agreed upon prior to the referendum. The parties will 
likely require broad international technical assistance from oil and 
revenue experts. Given the urgency of the issue, the U.S. Government is 
closely coordinating with actors such as Norway who are well positioned 
to provide oil sector-related assistance. Last, determination of 
transborder access for pastoralists must be resolved prior to formal 
independence, and the U.S. Government is undertaking diplomatic 
outreach to the two parties to remind them of the urgency of this 
issue, especially for nomadic populations in the Abyei Area.

                                  <all>

</pre></body></html>
